<html>
<title> - A NEW U.S. GRAND STRATEGY (PART 1 OF 2)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-159]

                       A NEW U.S. GRAND STRATEGY

                             (PART 1 OF 2)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 15, 2008

                       [H.A.S.C. 110-168 part 2]

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE



                  U.S. GOVERNMENT PRINTING OFFICE
44-340                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant






                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, July 15, 2008, A New U.S. Grand Strategy (Part 1 of 2)..     1

Appendix:

Tuesday, July 15, 2008...........................................    43
                              ----------                              

                         TUESDAY, JULY 15, 2008
                A NEW U.S. GRAND STRATEGY (PART 1 OF 2)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bacevich, Dr. Andrew J., Professor of International Relations, 
  Boston University..............................................     4
Dobbins, Ambassador James, Director, International Security and 
  Defense Policy Center, RAND Corporation........................     6
Posen, Dr. Barry R., Director, Security Studies Program, 
  Massachusetts Institute of Technology..........................    10
Reiss, Dr. Mitchell B., Vice Provost for International Affairs, 
  William and Mary Marshall-Wythe School of Law..................    13

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    49
    Bacevich, Dr. Andrew J.......................................    50
    Dobbins, Ambassador James....................................    58
    Posen, Dr. Barry R...........................................    73
    Reiss, Dr. Mitchell B........................................    83
    Snyder, Hon. Vic.............................................    47

Documents Submitted for the Record:

    A Grand Strategy of Restraint submitted by Dr. Barry R. Posen    99

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
                A NEW U.S. GRAND STRATEGY (PART 1 OF 2)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Tuesday, July 15, 2008.
    The subcommittee met, pursuant to call, at 10:05 a.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good morning. Why don't we get started here 
this morning? We have, I think, titled this hearing, instead of 
hearings, A New U.S. Grand Strategy.
    But the term ``grand strategy'' is one that I think several 
of us on the committee are still trying to get our hands 
around, and particularly, do we currently have one? Do we need 
one? And if so, what should it be? And we appreciate the four 
of you being here today and getting a start on this.
    We began last July and then in January on six hearings on 
Iraq in terms of what should our strategy and proposals--
alternatives be for Iraq. We have had a series of discussions 
about interagency reform specifically focusing on the 
provincial reconstruction team. But the whole concept of reform 
and change and the new policies often comes back to, what is 
the unifying theme? Should there be a unifying theme? And that 
is what we hope you will help us with this morning.
    Chairman Ike Skelton is here with us this morning, and he 
is also in the process of elevating this discussion of what 
should a national strategy look like. And, in fact, he is in 
the process of giving some speeches about that. In fact, we are 
going to have a full committee hearing, I believe in September, 
with--we hope with some former high-ranking officials from both 
Defense and State.
    Henry Kissinger noted in an April opinion piece that the 
global environment is going through an unprecedented 
transformation in a discussion he called the three revolutions: 
one, the transformation of the traditional state system of 
Europe; number two, the radical Islamic challenge to historic 
notions of sovereignty; and three, the drift of the center of 
gravity of international affairs from the Atlantic, to the 
Pacific and Indian Oceans. And, in fact, his discussion was 
about the fact that perhaps our Presidential debate, as we head 
into the fall, ought to be about those kinds of themes rather 
than the things that have been talked about so far in the 
national security area.
    Before introducing our witnesses, I would like to recognize 
Chairman Ike Skelton for any comments or an opening statement 
he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 47.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
             CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you very much.
    First, let me compliment you, Dr. Snyder, on your interest 
in calling this hearing. You and I have discussed on any number 
of occasions the need for a strategy for the United States, and 
I have had the opportunity over a period of years and more 
recently months in talking with leading thinkers in this area. 
And kind of like Mark Twain, the more you explain it to me, the 
more I don't understand it because this is a very complex world 
in which we live. And to try to glue together a strategy based 
upon a solid policy, much less the tactics, both military and 
diplomatic, that would fit under such a strategy is very, very 
difficult.
    During the Cold War, the Truman Administration glued 
together what we know as the doctrine of containment, which 
worked. When President Eisenhower was elected, he did not 
automatically accept it. He had a series of three teams that 
studied the issue of policy and strategy; and he ended up 
deciding that what was in the Truman doctrine was the correct 
one and swore that the containment theory did work, as we know, 
culminating in 1989 when the Wall came down and all of the 
Soviet Union changed in character.
    To glue together such a strategy now is more difficult, 
which we all know, because of the different challenges, 
threats, interests that are throughout the world. It cannot be 
centered on the Islamic radicals because that omits a great 
part of the world.
    So where do we go from here? That is where our witnesses 
come in to give us their best thought. First, you have to have 
a policy, you have to have a strategy in order to get there; 
and then, of course, the diplomatic and, when necessary, 
military techniques under it.
    Dr. Snyder and Mr. Akin will have hearings here in the 
subcommittee, which I compliment them on--Doctor, thank you for 
your leadership in this role--and in September we hope to have 
a major culminating hearing.
    Whatever the strategy is and comes from the White House, it 
is going to have to include Congress. It is going to have to 
include the American people, so that there is a common 
consensus as to where our Nation should go and what we want it 
to be like in 10, 15, 25 years and henceforth. And without a 
strategy, we are treading water or getting washed ashore 
somewhere else.
    So this may be the only place that this is being looked at 
seriously, and our committee intends to involve you very 
deeply.
    So, again, thank you so much.
    Dr. Snyder. Thank you, Mr. Chairman.
    We will recognize Mr. Akin now before we introduce our 
guests.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder. And I don't know which one 
is Mr. Chairman. We have a couple chairmen in here. We have so 
many chairmen, we don't know what to do with them.
    This is a hearing that I have long been looking forward to. 
Years ago, I was able to sneak through an engineering school 
and get a degree in engineering. And it seemed to me that one 
of the problems that we have is Americans who are really good 
at solving problems, but we are not too good at defining what 
the problem is. And that is why this hearing is exciting to me, 
because it seems like we are getting to the basic assumptions 
behind who we are as a Nation and who we are as a people, and 
then having to project those in terms of our policy.
    I hope that that is the way you are looking at things and 
can give us some thoughts on that subject. It would, I think, 
be interesting, too, if you built into your testimonies, 
gentlemen--and thank you for coming and joining us today.
    First of all, President Bush, it seems to me, has maybe 
extended or applied the old Monroe Doctrine to a certain degree 
in a preemptive sense against Islamoterrorism. You might 
include that as part of whether or not you see that as part of 
where we should be.
    It is also clear that the President has made the war on 
terrorism for the past 8 years his number one priority. 
Certainly, if you talk to him, that is what he is thinking 
about all the time. And then it also seems to me that almost 
before you can come up with a grand strategy, it seems that you 
almost have to agree to a vision of who we are as a people, 
what America is.
    I have always used largely the basis of what is written in 
our Declaration of Independence as the basis, the idea that we 
believe that there is a God--even if you disagree with what his 
name is--and he gives basic rights to people: life, liberty and 
the pursuit of happiness. And governments are instituted among 
men to protect those basic rights.
    When we have gone to war, in the War of Independence, we 
fought because we believed that sentence. And if you look at 
most of the wars that we have fought, they have been fought 
basically on that idea, that we think that there are 
fundamental rights that all people should have, and some tyrant 
was trying to take them away.
    Is that still a basis for our Nation and for our grand 
strategy or not? And does that fit in?
    I think those are some interesting questions. I look 
forward to the witnesses' testimony. I thank you, both Mr. 
Chairmen, for a very interesting topic for a hearing.
    Dr. Snyder. Thank you, Mr. Akin.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 49.]
    Dr. Snyder. We are pleased to have with us today our panel 
of experts: Dr. Andrew Bacevich, Professor of International 
Relations and History at Boston University; his latest book is 
The Long War and New History of U.S. National Security Policy 
Since World War II;
    Dr. and Ambassador James Dobbins, Director of the 
International Security and Defense Policy Center at the RAND 
National Security Research Division, who has served as a 
diplomat in South America, Europe and Afghanistan;
    Dr. Barry Posen, the Ford International Professor of 
Political Science and Director of Security Studies at the 
Massachusetts Institute of Technology; his recent article is 
called The Case for Restraint; and
    Dr. Mitchell Reiss, the Vice Provost for International 
Affairs at the College of William and Mary and Professor at the 
College's Marshall-Wythe School of Law, who previously directed 
the policy planning staff at the Department of State.
    Gentlemen, we are pleased you are here with us today. I 
found your written statements to be very thought provoking, and 
in fact, they will be made a part of this record.
    I might also say, any written statement that Chairman 
Skelton or Mr. Akin or other members of the committee wish to 
be made part of the record will be done so, without objection.
    We are going to have the five-minute clock go on here, so 
when you see the red light go off, it means five minutes has 
ended. Feel free to take longer if you need to. But I think we 
have an energetic group of members that would like to ask some 
questions, so we will put the light on there as your guideline.
    We will begin with you, Dr. Bacevich, and just go right 
down the line. Dr. Bacevich, you are recognized for as much 
time as you need.

STATEMENT OF DR. ANDREW J. BACEVICH, PROFESSOR OF INTERNATIONAL 
                  RELATIONS, BOSTON UNIVERSITY

    Dr. Bacevich. Thank you for the opportunity to present my 
views to this committee. I am very grateful for that chance.
    In American practice, grand strategy almost invariably 
implies conjuring up a response to emerging threats or 
prospective challenges beyond our borders. The expectation is 
that an effective grand strategy will provide a framework for 
employing American power to shape that external environment.
    These days, strategists expend considerable energy and 
imagination devising concepts intended to enable the United 
States to win the global war on terror, to transform the 
greater Middle East or to manage the rise of China. These are 
honorable, well-intentioned efforts and may, on occasion, 
actually yield something useful. After all, as Chairman Skelton 
noted, the grand strategy of containment devised at the end of 
World War II did serve as an important touchstone for policies 
that enabled the United States and its allies to prevail in the 
Cold War.
    Yet there is a second way to approach questions of grand 
strategy. This alternative approach, which I will employ in my 
very brief prepared remarks, is one that emphasizes internal 
conditions as much as external threats.
    Here is my bottom line: The strategic comparative that we 
confront in our time demands, first of all, that we would put 
our own house in order--fixing our problems to take precedence 
over fixing the world's problems.
    The past decade has seen a substantial erosion of U.S. 
power and influence. This has occurred, in part, as a result of 
ill-advised and recklessly implemented policy decisions, the 
Iraq war not the least among them. Yet it has also occurred 
because of our collective unwillingness to confront serious and 
persistent domestic dysfunction. The chief expression of this 
dysfunction takes the form of debt and dependency. In the not-
so-very-distant future, they may well pose as great a danger to 
our well-being as violent Islamic radicalism or a China intent 
on staking its claim to the status of great power.
    To persist in neglecting these internal problems is, in 
effect, to endorse and perpetuate the further decline of U.S. 
power. Let me illustrate the point with two examples.
    Example number one is energy. I hardly need remind members 
of this committee of the relevant facts. Once the world's 
number one producer of oil, the United States today possesses a 
paltry four percent of known global oil reserves, while 
Americans consume one out of every four barrels of worldwide 
oil production. President Bush has bemoaned our addiction to 
foreign oil. He is right to do so. The United States now 
imports more than 60 percent of its daily petroleum fix, a 
figure that will almost certainly continue to rise.
    The cost of sustaining that addiction are also rising. 
Since 9/11 the price of oil per barrel has quadrupled. The 
Nation's annual oil bill now tops $700 billion, much of that 
wealth helping to sustain corrupt and repressive regimes, some 
of it subsequently diverted to support Islamic radicals who 
plot against us.
    Since the 1970's Americans have talked endlessly of the 
need to address this problem. Talk has not produced effective 
action. Instead, by tolerating this growing dependence on 
foreign oil, we have allowed ourselves to be drawn ever more 
deeply into the Persian Gulf, a tendency that culminated in the 
ongoing Iraq war. That war, now in its sixth year, is costing 
us an estimated $3 billion per week, a figure that is 
effectively a surtax added to the oil bill. Surely this is a 
matter that future historians will find baffling, how a great 
power could recognize the danger posed by energy dependence and 
then do so little to avert that danger.
    Example number two of our domestic dysfunction is fiscal. 
Again, you are familiar with the essential problem, namely, our 
persistent refusal to live within our means. When President 
Bush took office in 2001, the national debt stood at less than 
$6 trillion. Since then it has increased by more than 50 
percent to $9.5 trillion. When Ronald Reagan became President 
back in 1981, total debt equaled 31 percent of GDP. Today, the 
debt is closing in on 70 percent of GDP.
    This is no longer money we owe ourselves. Increasingly, we 
borrow from abroad, with 25 percent of total debt now in 
foreign hands. Next to Japan, China has become our leading 
creditor, a fact that ought to give strategists pause.
    Given seemingly permanent trade imbalances, projected 
increases in entitlement programs and the continuing cost of 
fighting multiple open-ended wars, this borrowing will continue 
and will do so at an accelerating and alarming rate. Our 
insatiable penchant for consumption and our aversion to saving 
only exacerbate the problem. Any serious attempt to chart a 
grand strategy for the United States would need to address this 
issue, which cannot be done without considerable sacrifice.
    Now, there are those who would contend that the Bush 
Administration has already formulated a grand strategy. The 
centerpiece of this strategy is the global war on terror. In 
some corridors, it is referred to as ``the long war.''
    In fact, the long war represents an impediment to sound 
grand strategy. To persist in the long war will be to 
exacerbate the existing trends toward ever greater debt and 
dependency, and it will do so while placing at risk America's 
overstretched armed forces. To imagine that a reliance on 
military power can reverse these trends toward ever-increasing 
debt and dependency would be the height of folly. This is the 
central lesson that we should take away from the period since 
9/11.
    Shortly after 9/11, then-Secretary of Defense Donald 
Rumsfeld framed the strategic problem facing the United States 
this way: ``We have a choice,'' he said, ``either to change the 
way we live, which is unacceptable, or to change the way they 
live.'' And ``we,'' referring to the Bush Administration, chose 
the latter.
    What we have learned since then is that the United States 
does not possess the capacity to change the way they live, 
whether they are the people of the Middle East or indeed of the 
entire Islamic world. To persist in seeing U.S. grand strategy 
as a project aimed at changing the way they live would be to 
court bankruptcy and exhaustion.
    In fact, the choice facing the United States is this one: 
We can ignore the imperative to change the way we live, in 
which case we will drown in an ocean of red ink, or we can 
choose to mend our ways, curbing our profligate inclinations, 
regaining our freedom of action, and thereby preserving all 
that we value most. In the end, how we manage or mismanage our 
affairs here at home will prove to be far more decisive than 
our efforts to manage events beyond our shores, whether in the 
Persian Gulf or East Asia or elsewhere.
    Thank you very much.
    Dr. Snyder. Thank you, Dr. Bacevich.
    [The prepared statement of Dr. Bacevich can be found in the 
Appendix on page 50.]
    Dr. Snyder. Ambassador Dobbins.

STATEMENT OF AMBASSADOR JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Ambassador Dobbins. Thank you.
    Let me start by saying, I agree with Dr. Bacevich on his 
main point, which is that the budget deficit currently 
represents America's greatest vulnerability and correcting it 
is our greatest national security challenge.
    It is very flattering to be asked to comment on the 
components of a new grand strategy. I have to say, as a long-
time practitioner of American diplomacy, I have some skepticism 
about the utility of grand and somewhat, sometimes, grandiose 
statements of American purpose in terms of an actual guides for 
the conduct of policy.
    My experience over the last 40 years impresses upon me the 
enduring interests, friends, and values that the United States 
has, and the importance of consistency in our behavior and 
continuity in our policies. Rather than try to sketch out an 
entirely new schemata, therefore, let me suggest how our 
existing grand strategy might be amended in reaction to our 
experiences of the last year.
    I believe that the contemporary schools of foreign policy--
realism, Wilsonianism, neoconservative--provide pundits and 
political scientists with useful instruments for analysis, but 
afford poor guides to future conduct. Wise Presidents and 
legislators will pick and choose among these alternative 
efforts to describe and prescribe for a world that defies easy 
categorization, worrying less about ideological coherence and 
more about incremental progress toward long-term national goals 
which do not and should not in the main change.
    In terms of aspects of the current policy, which I think 
need some amendment, although not complete reversal, I would 
include the war on terror, preemption, democratization and 
nation-building, all central elements of the current 
Administration's approach, all of which have become, as a 
result of the war in Iraq, somewhat more controversial.
    On the first, the war on terror, the Bush Administration's 
rhetoric since 9/11 has accentuated the martial character of 
the terrorist threat and the warlike nature of the required 
response. Treating terrorists as combatants and labeling their 
activities as jihad or holy wars dignifies their endeavors, 
bolsters their self-esteem, and enhances their standing 
throughout the Muslim world.
    Most of the tangible success in the war on terror comes as 
a result of police intelligence and diplomatic activity. 
Certainly efforts to counter violent extremism and protect the 
American homeland must continue, but we need to find a 
vocabulary that secures us broader international support, which 
denigrates rather than dignifies the terrorists, and which 
supports a greater allocation of our own resources to 
diplomatic intelligence and law enforcement instruments.
    Preemption is another aspect of the current doctrine which 
I believe needs to be modified. After all, over more than two 
centuries the United States has conducted dozens of military 
campaigns, only two of which were in response to attacks on our 
homeland. This record should leave no one in doubt that the 
United States will employ military force when necessary to 
protect itself and its friends and its interests without 
necessarily waiting to be struck first. But trying to 
incorporate this in a declarative doctrine simply makes our 
military actions more controversial when they take place and 
diminishes the degree of international support that we are able 
to get for them.
    Democratization is another aspect of the current 
Administration's approach which I don't think should be 
jettisoned, but I do think needs to be somewhat modified. Like 
preemption, democracy promotion has been a component of our 
foreign policy almost since the country's birth. In the 18th 
century, all of Latin America adopted the American model, 
however imperfectly, and in the recent decades all of Latin 
America, much of East Asia, some of Africa, and all of Eastern 
and Central Europe have become functioning democracies with 
American help. It was, as Condoleezza Rice has indicated, 
probably a mistake to have not applied these kinds of policies 
in the Middle East over the last 60 years; but it is also 
unrealistic to expect this deficiency to be remediated over a 
period of a few years.
    Democracy is no panacea for terrorism and no shortcut to a 
more pro-U.S. or, for that matter, pro-Israeli Middle East. 
Established democracies may not wage war on one another, but 
studies have shown that democratizing nations are highly prone 
to internal and external conflicts.
    Furthermore, elections are polarizing events and we have 
seen the effect of elections in highly divided countries over 
the last few years. So I do believe that we should continue to 
pursue democratization, but we should expect this to be a long-
term rather than a short-term program; and I think we do need 
to focus less on dramatic electoral breakthroughs and more on 
U.S. efforts to advance democracy by building on its 
foundations, including the rule of law, civil society, larger 
middle classes, and more effective, less corrupt governments.
    Nation building is another aspect of current policy that 
has also become controversial. And while the Administration has 
made some commendable efforts to improve its performance after 
the initial setbacks in Afghanistan and Iraq, and while it has 
clearly determined to do better next time, many Americans may 
be more inclined not to do this kind of thing next time.
    In fact, both conclusions are valid. The United States 
should certainly avoid invading any further large hostile 
countries on the basis of faulty intelligence with the support 
of narrow, unrepresentative coalitions. But not all conflicts 
are avoidable. Iraq may have been a war of choice and the 
choice may have been a poor one, but Afghanistan was neither, 
and both interventions left the United States with a heavy 
burden for nation building.
    Nation building is tough, slow work. Yet, contrary to 
popular impression, successes do outnumber failures. Tens of 
millions of people are living today at peace in places like El 
Salvador, Mozambique, Namibia, Cambodia, Albania, Bosnia, 
Kosovo, Macedonia, East Timor, Haiti, Sierra Leone, and Liberia 
because either American or European or NATO or U.N. troops came 
in, separated the combatants, disarmed the contending factions, 
helped rebuild the economy, organized elections, and stayed 
around long enough to make sure that those governments could 
take effect.
    It is the Middle East where our national security strategy 
has undergone the greatest innovation since 9/11, where it has 
encountered the least success, and where, consequently, the 
need for renovation is the greatest. Today, we have some 
200,000 troops in the region and yet our influence has never 
been more absent. At present, the European Union is leading 
negotiations on the Iranian nuclear program. Turkey is 
brokering peace talks between Israel and Syria. Qatar has just 
mediated an end to the political crisis in Lebanon. Egypt has 
brokered a cease-fire accord between Israel and Hamas in Gaza.
    This Administration initially resisted all of these 
efforts. American leadership is currently manifested only in 
what appears to be a dead-end negotiation between the Israelis 
and the Palestinians, a process that, at best, is going to 
produce a statement of principles before the end of the current 
Administration.
    There is no controversy about what our country's objectives 
in this region are. We all want a secure Israel at peace with 
its neighbors, a denuclearized Iran, a unified and democratic 
Iraq, and the modernization and democratization of all the 
societies in the region. What is under debate is not our ends, 
but how we prioritize them and the best means of approaching 
them.
    The threat from al Qaeda is centered primarily in South and 
Central Asia, and secondarily, in disaffected Muslim 
populations in Western societies, not in the Middle East. The 
attacks of 9/11, therefore, do not justify or require an 
enduring American presence in the Gulf region. The overall 
American goal in this region should be to promote the emergence 
of an equilibrium among local powers that does not require most 
of our available ground forces to sustain.
    This is not an impossible goal. Such a balance existed from 
when Great Britain left the Persian Gulf in the early 1950's 
until Saddam Hussein invaded Kuwait in the early 1990's. During 
this 40-year period, American interests were preserved with 
little more than occasional naval visits. A return to this 
condition may take a while, but it will be worth enunciating 
this as a national goal.
    On the other hand, a precipitous withdrawal from Iraq could 
easily move us further from that objective. We owe it to the 
Iraqis, we owe it to the region, and we owe it to ourselves to 
leave behind a unified country capable of contributing to 
regional stability. This will not happen overnight nor even, in 
all likelihood, within the next year or two, although some 
significant troop draw-downs over this period may well prove 
feasible if the security situation there holds.
    I have not addressed many other areas of our national 
security strategy on which I think there is a broad consensus 
and on which I have no great differences with the 
Administration.
    The Bush Administration has moved away from its unilateral 
approach in its early years and has sought to force better 
relations with Europe, Russia, China and India, the world's 
other major power centers; and I would anticipate that the next 
Administration is likely--whoever is elected--to embrace these 
policies and continue those approaches.
    Having served under eight Presidents through seven changes 
of Administration, I have come to view these transitions as 
periods of considerable danger, as new and generally less-
experienced people assume positions of power with mandates for 
change and a predisposition to denigrate the experience and 
ignore the advice of their predecessors.
    America needs a grand strategy that helps it bridge these 
troubled waters, one that enjoys bipartisan support and is 
likely to endure. One key criteria for judging any newly 
announced grand strategy, therefore, is whether it is likely to 
be embraced by successor Administrations. In this respect, 
Napoleon's advice with respect to constitutions may prove apt: 
that they be short and vague.
    Thank you.
    Dr. Snyder. Thank you, Ambassador.
    [The prepared statement of Ambassador Dobbins can be found 
in the Appendix on page 58.]
    Dr. Snyder. Dr. Posen. And, Dr. Posen, I note you have the 
greatest challenge of condensing your thoughts to 5 minutes 
because you gave us a very comprehensive written statement, 
which I appreciate.

  STATEMENT OF DR. BARRY R. POSEN, DIRECTOR, SECURITY STUDIES 
         PROGRAM, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Posen. I am an academic scrivener and you have my 
scrivenings, so I will not read them.
    I want to thank you for inviting me. The last time I was 
before the House Armed Services Committee was in the 1990's. 
Congressman Dellums was Chair. The subject of the hearing was 
U.S. grand strategy. At that time I argued that there were 
roughly four grand strategies competing in the American 
intellectual discourse, and I believe we are down to two.
    I am going to say what the two are. One is, I think, 
basically the consensus, which I think to some extent 
Ambassador Dobbins just represented; and the other is a 
critique that has been around since the 1990's that several of 
us are making. You have heard a little from my colleague, Andy 
Bacevich, and that is a grand strategy that many are starting 
to call restraint and renewal. And I will talk in a second 
about restraint and renewal.
    Before I do, I want to not lay out what I think the grand 
strategy is, but I do think grand strategies offer a lot of 
benefits. And I feel like Ambassador Dobbins was critical of 
that, and I just want to remind people that there are reasons 
why you want grand strategies to do the things that they do.
    One, we live in a world of scarcity. Choices need to be 
made. We need some sort of metric by which we are going to make 
those choices.
    Second, the U.S. Government is a vast enterprise. We need 
some general concepts, general theory, to coordinate the 
activities of that enterprise.
    Third, this is a great, big, and rambunctious political 
system. We need a way to ensure government accountability. The 
population of this country, its elites, need a way to judge new 
enterprises when they are offered. Are they consistent with the 
grand strategy that we understand to be our grand strategy? And 
why are they consistent?
    And finally a grand strategy is needed to communicate 
America's interests abroad. Much of what we do in the world is 
either about coercion or deterrence. You can only practice 
coercion and deterrence if people know what you are up to and 
why you are up to it. Stated grand strategies help you do that.
    The current grand strategy consensus in the United States 
is centered around the United States being essentially the 
preeminent power in the world, an extremely active power, a 
very heavily armed power, a power that is concerned about 
threats of all kinds--threats to safety, sovereignty, national 
security, power position. It is concerned about the internal 
workings of other countries and the power that other countries 
can mobilize. It is concerned about terror. It is concerned 
about great powers. It is concerned about energy.
    It is a long, long list which almost defies prioritization; 
and it leads the United States to an extremely activist policy 
that I think has not served us well in recent years, for some 
of the reasons that Andy Bacevich talked about.
    Now, people who are interested in this grand strategy, I 
think, are motivated by five big facts that they see as being 
extremely important in international politics today. One is the 
fact that the U.S. has great power. The United States is still 
the preeminent economic power in the world, and it is certainly 
the preeminent military power in the world.
    This is an enormous source of American security, but it is 
also an enormous source of temptation. Americans always believe 
they have the capability to do the things that they can 
imagine. That is extremely tempting.
    Second, much of the world we used to talk about, the great 
regions of the eastern and western ends of Eurasia where the 
middle and great powers are, these parts of the world are as 
stable as they have ever been. There are balances of power, 
regional balances of power, in these parts of the world. And 
the United States has to do much less to accomplish its basic 
interests in the world than it once did.
    Third, globalization is a powerful force. The people who 
study it have disagreements about how the force works. The one 
thing I think we can say it does: It disrupts the lives of 
hundreds of millions of people in the world. It brings the 
power of modern capitalism to the developing world. It shakes 
up societies. It draws people into cities. It interacts with 
the population explosion in this part of the world, with 
urbanization in this part of the world; and it makes large 
numbers of people extremely insecure and ripe for mobilization 
for all kinds of political action--most of it, we hope, good; 
but some of it, we have seen, bad.
    Another aspect of globalization is the diffusion of power 
in the world, right? And though the United States is certainly 
a clear number one, a lot of capability is now out there in the 
hands of countries that we have formerly thought of as weak. 
And this capability makes itself felt particularly when the 
United States military goes ashore.
    There are millions and millions of young men of military 
age in the developing world. There are millions and millions of 
infantry weapons left over from the Warsaw Pact that have made 
their way into the developing world. When an American soldier 
goes to the developing world, he meets many, many adversaries. 
And this is going to drive up the cost of American intervention 
to rebuild societies, to wage counter insurgencies. The costs 
are high and they are going to get higher.
    Finally, nuclear proliferation is a sad fact of modern 
international life. We look at the new proliferators, the 
countries that are managing to get nuclear weapons. These are 
not modern, highly capable industrial powers--or they are 
modern, highly capable industrial powers, but they are small 
ones. Cracking the nuclear code is just not that difficult 
anymore. And if the United States has the idea that we can 
basically control entirely the diffusion of nuclear weapons 
technology to the rest of the world, then we are in for a very, 
very large and very, very demanding project, all right.
    Now, in light of these facts, what does restraint recommend 
as a U.S. grand strategy? Basically, the United States has to 
focus first on preserving its own power, which is the ultimate 
source of American security. And right now, as Andy Bacevich 
suggested, the sources of that power, the sinews of American 
power, are in danger.
    Second, we have to maintain the capability when we wish, 
when we need to, to tip the balance of power on the Eurasian 
landmass. As I said earlier, the Eurasian landmass is quite 
stable right now, so America does not have to do much. But it 
does have to maintain the capability to do it if it has to.
    We have a problem with terrorism. We should focus on the 
key source, which is this organization, al Qaeda. And we should 
deal with terrorism in a way that doesn't create more support 
for terrorists, which means the United States has to be 
extremely judicial in the offensive use of military force and 
depend much more on intelligence and police cooperation to deal 
with this problem.
    Finally, we have to avoid the following four perils of our 
current grand strategy:
    One is overstretch, the tendency of American activism to 
take us into costly and open-ended engagements.
    Second, making the United States a magnet for balancing and 
targeting, right? Being too imminent in the lives of others 
cause them to blame us for the problems that they face.
    Third, we have a problem with our allies. Our policies 
encourage free riding and reckless driving. The Europeans spend 
a very small share of GDP on defense compared to the United 
States, less than two percent typically. The Japanese spend 
less than one percent. These are rich allies, with strong 
currencies these days, all right? They have good industrial 
bases. They produce good weapons. They have decent and, in many 
cases, quite good military commanders. They could do more, they 
should do more; they don't have to do more because the 
Americans are carrying the load.
    The flip side is, we have allies who trust us too much and 
who drive recklessly. Right now the Iraqi Government continues 
to drive recklessly, secure in the notion that the Americans 
will catch them if they fall. For years, the Taiwanese 
Government drove recklessly. Sometimes the Israeli Government 
drives recklessly. And the United States needs to do something 
to discourage this reckless driving.
    And, finally, we face a problem of blow-back. Our grand 
strategy affects American politics at home. When we go to 
explain a policy to the American people, it seems like we 
invariably tell them that whatever new initiative, whether it 
is going to be Bosnia or Iraq or Afghanistan, it is ultimately 
going to be inexpensive.
    It is time we started leveling with the American people 
about these things. The deployment of military power to rebuild 
nation-states, to fight counterinsurgencies, to occupy other 
countries, these are very expensive and long-term projects. And 
the American people need to be told so that they can 
participate in this debate in a way that allows them to have 
some say over whether or not they want to pursue this strategy.
    With that, I will stop. Thank you.
    Dr. Snyder. Thank you, Dr. Posen.
    [The prepared statement of Dr. Posen can be found in the 
Appendix on page 73.]
    Dr. Snyder. Dr. Reiss.

     STATEMENT OF DR. MITCHELL B. REISS, VICE PROVOST FOR 
 INTERNATIONAL AFFAIRS, WILLIAM AND MARY MARSHALL-WYTHE SCHOOL 
                             OF LAW

    Dr. Reiss. Thank you, Mr. Chairman, and thank you and the 
whole committee for inviting me to testify today.
    It seems that we have been searching for a new Mr. X or Ms. 
X, for a decade now, since our ultimate triumph in the Cold 
War. A number of foreign policy experts have tried to answer 
the call to become the next Mr. X, yet none has won the Mr. X 
sweepstakes. Public and elite opinion have not yet coalesced 
around any of these grand strategic attempts. So it is 
interesting to ask ourselves why is this so.
    There are three possible reasons. The first is that there 
is no single unifying threat that galvanizes the attention of 
the United States, our allies and friends and the world. There 
is currently no ``glue'' to bind countries together like the 
glue the Soviet Union provided during the Cold War. The global 
war on terror, which some would maintain is the unifying force 
around which a grand strategy can be constructed, simply 
doesn't provide the same amount of glue.
    A second possible reason is that the world today is too 
complex. In place of a single overarching threat, there are 
today a wide variety of lesser threats that impact different 
countries differently, thereby discouraging collective action. 
These threats fall into two general categories, country-
specific threats, like Iran and North Korea, and transnational 
threats, such as climate change, WMD proliferation, mass 
migration, terrorism, and infectious diseases.
    It is humbling to think that today George Kennan would not 
only need to have a deep understanding of Russian politics, 
history, and culture, but would also need a deep understanding 
of China's military modernization, global economic flows, 
demographic trends, environmental degradation, WMD 
proliferation, and the sources of Islamic extremism, to name 
but a few topics. That is a pretty high bar for anyone to 
surmount.
    The third possible reason has less to do with the supply 
side than with the demand side. Our political system today is 
too divided to accept a grand strategy. And it is not just 
divisions between the Republicans and the Democrats; it is also 
divisions within the different wings of each party. There is 
simply not a lot of receptivity to grand, unifying ideas. In 
particular, there is no consensus over five key concepts, what 
we might term the building blocks of any new grand strategy.
    The first key concept is American primacy. As you recall, 
the Bush Administration's 2002 national security strategy was a 
rousing call for extended American primacy. For some, this 
language was viewed as aspirational, a distant goal on a 
faraway shore, and certainly unobjectionable. After all, why 
wouldn't we want the United States to remain the dominant power 
for as long as possible?
    Others saw this goal as a realistic and achievable 
objective, assuming we kept our economy strong, made the 
necessary military hardware and personnel investments, and 
employed our strength widely. And still others viewed it as 
arrogant and objectionable, perhaps even horrifying.
    Significant differences exist around a second key concept: 
the use of American military force. Few people disagree that 
the United States should defend its vital interests. But this 
begs the larger question of how these vital interests should be 
defined, a task made more complex by the increasing 
interconnectedness of the world in which we live.
    A further complication is that some would maintain that the 
prevention of humanitarian disasters, such as genocide, is a 
vital interest of the United States, consistent with our 
national character and under an increasingly developing 
responsibility to protect.
    A third key concept where there isn't consensus is in our 
attitude toward international institutions. The classic reasons 
for establishing international institutions are well known, 
they reduce transaction costs, they provide a forum for 
regularized contact and information exchange, and they 
institutionalize a cadre of professional expertise. However, 
critics argue that these institutions often take a lowest 
common denominator approach and are unable to respond 
effectively to fast-moving crises.
    They point to the inability of the International Atomic 
Energy Association (IAEA) to thwart the nuclear ambitions of 
North Korea and Iran, the U.N.'s Oil-for-Food scandal, and the 
gross misbehavior of some of its African peacekeepers. We have 
just seen in the past few days the inability of the U.N. 
Security Council to effectively sanction Zimbabwe.
    These critics prefer, instead, coalitions of the willing, 
ad hoc groups of like-minded states that form and reform 
depending on the contingency.
    A fourth key concept where there isn't agreement: democracy 
promotion. On few Bush Administration policies has there been 
less agreement over how best to proceed. Is democracy promotion 
about holding elections, building civic institutions, 
alleviating poverty, reforming education, promoting women's 
rights, transparency in the rule of law; or all of the above? 
Do we promote democracy differently depending on the country or 
region? Is democracy promotion the same for China, the Congo, 
Saudi Arabia, and Belarus?
    And even assuming we can find the right tools, how do we 
measure success? What metrics are the most relevant? And how 
urgently do we push democracy? What time frame do we use?
    Needless to say, answers to each of these questions range 
all over the political spectrum.
    The fifth key concept is globalization. The debate over 
globalization in the United States has largely been reduced to 
strongly held views on trade. The wide gap between the ``free 
trade'' Republicans and the ``fair trade'' Democrats has been 
on public display during this Presidential campaign season.
    Now, these are serious divisions, and it is unclear whether 
they will be bridged or reconciled anytime soon. But more 
importantly, they mask an even greater shortcoming that 
threatens America's security.
    As in George Kennan's time, America's diplomatic standing, 
military power, and financial influence are a product of our 
economic strength. Without a strong economy, our ability to 
promote our values and defend our interests, to support 
properly our men and women in uniform, to help our friends and 
allies overseas, and to safeguard our country will be gravely 
weakened. Without a strong economy, all talk about a grand 
strategy is illusory.
    As a first step, I strong strongly urge the committee to 
focus its first hearings on developing a strategy for 
sustaining and enhancing America's economic power. Such a 
strategy would include the following issues: reducing the 
national debt, which now stands at record levels and has placed 
great stress on the middle and working classes; tackling the 
coming crisis in entitlement payments, especially health care, 
U.S. citizens 65 and over will increase by a projected 147 
percent between now and 2050; reforming immigration laws to 
ensure that highly skilled and motivated people can continue to 
come to the United States to work, create jobs, and receive an 
education; revitalizing our industrial infrastructure and 
developing a new national energy strategy to reduce our 
dependence on foreign oil, including greater investment in 
alternative energy sources.
    These are just a few of the hurdles that we will have to 
surmount in the coming years if we wish to keep America strong.
    Thank you.
    [The prepared statement of Dr. Reiss can be found in the 
Appendix on page 83.]
    Dr. Snyder. Thank you all for your thoughtful, both written 
and oral, statements.
    Mr. Skelton has asked if he could defer to the end of the 
subcommittee members, and we will do that. We will go ahead and 
put on the clock. We will put ourselves on the five-minute 
clock and go around, and we will probably have time for a 
second round.
    I appreciate you all's comments today. And I also 
appreciate--I think there is unanimous agreement on--I think 
every one of you talked about the economy and that here we are 
a subcommittee of the House Armed Services Committee, and yet 
you see the economy as being perhaps our number one priority 
that we ought to look at as a nation. And I certainly can't 
disagree with that.
    The two questions I want to ask I am going to combine into 
one and let you respond to it. One is, given what you all have 
presented here today, do you see--would you describe what we 
are in? The situation right now is--are we in a situation of 
drifting?
    Dr. Reiss, you talked about how there is not really an 
agreement in--either politically or in the country for a grand 
strategy. Would you describe this as a period of, we are 
drifting? Would we describe it as a period in which we have 
sufficient strategy? Would you describe it as a situation in 
which we just need to recognize we do need to have a complex--a 
statement, but it will be a complex statement of where to go in 
terms of strategy?
    And the second question I want to ask, what role for 
Congress do you see in these discussions that we have asked you 
to respond to today?
    Dr. Bacevich, we will start with you.
    Dr. Bacevich. I think that the Bush Administration seized 
upon 9/11 as an opportunity to revolutionize U.S. grand 
strategy. And when we look at a very important--I personally 
think wrong-headed, but very important document like the 
National Security Strategy of 2002, we see an authoritative 
statement of what that new grand strategy was to be.
    Fast forward to 2008, and it seems to me that events have 
shown that that grand strategy, post-9/11 grand strategy, was 
fundamentally defective and, indeed recently, increasingly we 
see the Bush Administration implicitly backing away from it 
toward a more realistic and, I think, more restrained approach 
to things.
    So I think the answer to the question is, we still have a 
grand strategy on the books, as it were, and it has been 
discredited. And yet there has been insufficient recognition of 
the extent to which it has failed and, therefore, insufficient 
public dialogue about the need to replace it.
    I mean, this hearing, in a sense, may be part of an effort 
to promote that kind of a dialogue. But we don't so much have 
drift as we have a statement of policy that has failed and has 
yet to be replaced.
    Dr. Snyder. Mr. Dobbins.
    Ambassador Dobbins. I agree with that. Looking back 
throughout the Cold War for 40 years, we essentially had a 
bipartisan approach to national security policy. There were 
hawks and doves, but they were in both parties. There were 
doves in both parties; there were hawks in both parties. There 
were people for arms control; there were people against arms 
control. There were people for detente; there were people 
against detente. But it was Nixon and Kissinger who led the 
detente move.
    So you had a national argument about these things, but it 
wasn't conducted on clearly partisan lines. And I think that 
helped very much to keep the dialogue constructive and to keep 
the country on course.
    That began to break down with the end of the Cold War. In 
the 1990's, the Clinton foreign policy was attacked by the 
opposition. And that is certainly one of the functions of the 
opposition, to oppose; so within reason, that is fine. But 
that, of course, continued with the Bush foreign policy. And I 
think as long as national security policy is, you know, 
regarded as a partisan issue--I am tougher than you are, I am 
more capable of leading the country than you are; and this 
transcends not just the personalities of Presidential 
candidates, but the parties--I think you are going to have a 
virtually impossible time devising a grand strategy that will 
transcend Administrations.
    Dr. Snyder. Dr. Posen.
    Dr. Posen. I will not surprise you that I have a different 
view. We may be drifting, but the feeling of drift, I think, 
has more to do with where we are in the political cycle.
    A colleague of mine did a little drill. She went through 
all of the national security policy statements of the principal 
candidates that appeared in the Journal of Foreign Affairs. I 
sat down last night and looked again at Senator Obama and 
Senator Clinton and Senator McCain. The amount of consensus is 
really quite surprising.
    And I think it would also be surprising if those documents 
were actually written by those people. They probably had staffs 
of foreign policy experts who helped them write those things. 
So I think there is quite a lot of consensus. I don't really 
think it is drift.
    Where I see the drift is an inability to bring together a 
sense of the real scarcity that the United States is going to 
begin to see in terms of resources because of the fiscal 
condition of the country and because of the expenses that are 
coming, the real difficulty of bringing that sense of scarcity 
together with our national security policy and trying to look 
at these things against each other.
    We have a tendency in this country to basically assume that 
if we identify something as a national security problem, we are 
going to find the money. But we have gotten into this habit of 
identifying many, many things as a national security problem, 
and this has produced a very, very big bill. And we have to do 
major rethink to try and figure out what our actual national 
security priorities are.
    And if there is one--if you are asking for a role for 
Congress, and I am no expert on how the Congress works--but I 
do think we have a problem in bringing together the disparate 
corners of our revenue raising and our spending in this country 
right now. We need a way to look at these very big numbers 
which you can find in any of the Congressional Budget Office 
documents about the future--these very big numbers about rising 
health care, about taxes that are insufficient to cover our 
spending, and about the magnitude of the defense budget today 
and the apparent preference for both of the current 
Presidential candidates to keep that defense budget high and 
maintain a high level of energy.
    So something has to give here. My own guess is that 
everybody is going to have to contribute to paying the bill. 
The defense budget and defense efforts are going to have to 
come down. Medical care is going to need to be controlled. And 
taxes are going to need to go up. And we need to have a 
discussion in this country about the realities of those trade-
offs rather than sort of continue to talk about these things in 
isolation and end our conversations with a kind of an airy 
collection of hopes and dreams about how we are going to slice 
away at these problems at the margins.
    These are percents of GDP, which is a lot of resources in 
this country. So that is the thing I think we need to find a 
way to focus on it. And if this body and this House can kind a 
way to focus on it, I think it would be a great contribution.
    Dr. Snyder. My time is up; we will go to Mr. Akin. But, Dr. 
Reiss, when we come around again, I will call on you first.
    I think we are going to have this problem all day, just 
because of the nature of the topic. I think we will try to 
follow the 5-minute rule as closely as we can even if it means 
witnesses don't all get a round.
    Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    And I appreciated your perspectives. It is refreshing to 
hear. You know, in certain ways you are agreeing and yet the 
focus and your emphasis is a little bit different and all.
    I guess some of the discredited and failed language that I 
heard in terms of what has gone on, it seems to me to be a 
little blind to what has happened in the last year in Iraq. I 
would be a little surprised if the people in Iraq really feel 
that in five years from now that they are in the same place 
they were back when--before we attacked Iraq.
    I think there has been progress. Whether the cost was 
reasonable in terms of return is a very different question. But 
it seemed to me that the President made a statement that was 
really a broad vision for what he wanted to do in foreign 
policy, and that was, he wanted to export freedom.
    I guess I would be interested--first of all, I don't know 
that he knew how to define that. But I am not sure that that 
wasn't a pretty grand vision for what we should be doing. I am 
not sure that--his approach to doing that was maybe more 
muscular than it needed to be and had less sales and more 
coercion in it. But yet that was still a pretty big idea.
    Would you want to respond to the concept of exporting 
freedom?
    Dr. Bacevich. I will take a stab.
    I think you ought to know what it is you are trying to 
export before you do try to export it. I agree with you that 
apart from some sort of grandiose language, they really had 
very little understanding of what the export of freedom in 
particular to the greater Middle East entailed. And we are 
oblivious to the possibility that people who lived in that 
region of the world might define ``free'' differently than we 
do.
    So, to my mind, it was a fool's errand that we never should 
have undertaken; that is to say, that the export of freedom to 
the greater Middle East in the aftermath of 9/11 was a 
completely wrong-headed objective and has taken us down the 
path.
    Now you alluded to the fact, and it is a fact, that over 
the past year or so technical conditions on the ground in Iraq 
have improved, at least in terms of the level of security. But 
it seems to me, to be fair to the Administration, the 
Administration didn't invade Iraq simply because of Iraq, but 
as you suggest, with this expectation that the invasion of Iraq 
was going to produce all kinds of positive second- and third-
order consequences.
    From my perspective, that hasn't happened.
    Dr. Bacevich. My perspective is that hasn't happened and 
that freedom has not been brought to the region. To the extent 
that democracy has taken hold, it has done things like brought 
Hamas to power in Gaza; it has enhanced the power of Hezbollah 
in Lebanon.
    So there is something fundamentally flawed with seeing the 
promotion of freedom as somehow the cornerstone or the 
fundamental source, the place to begin thinking about the 
U.S.----
    Mr. Akin. Does anybody else want to agree with that, or do 
you all disagree with the idea that exporting freedom is a 
reasonable starting point?
    Ambassador Dobbins. I think it is an important component of 
American foreign policy and has been for a long time, and I 
think it is an element of continuity in our approach.
    I do think that the emphasis given to this in the 
Administration's policies from 2003 to 2005, say, was excessive 
and ultimately counterproductive. I mean, we needed the 
cooperation of all of Iraq's neighbors if we were going to 
stabilize it. And none of them were going to cooperate in a 
project that was designed to undermine their legitimacy and 
ultimately overthrow their systems.
    So to the extent we saw Iraq as a model for the region and 
as a precursor for democratization of the region as a whole, we 
simply built up resistance to our overwhelming objective, which 
was to stabilize the country behind a freely elected 
government, which we could have done with a lot lower rhetoric.
    So I think the goal should continue to be an important 
element of our policy, but not always the dominant element and 
not always the element that we lead with rhetorically.
    Dr. Posen. I just think we have to be aware of what other 
definitions are. For many, many people, peoples, around the 
world, ``freedom'' means freedom from outside intrusion into 
their affairs. It is not their model of our government that is 
defined as freedom. It is the ability of their people to 
determine their own governments and their own ways.
    So the very idea of exporting freedom, the greatest power 
in the history of the world, sort of, bringing freedom to you, 
immediately involves all kinds of dilemmas and runs the risk of 
causing all kinds of trouble.
    I, sort of, look at the problem differently. I don't think 
freedom is very easy to export. I think others could import it, 
but I am not sure that we can export it.
    Mr. Akin. Go ahead, Dr. Reiss, or we may never get to you.
    Dr. Reiss. Thanks very much.
    I think President Bush's second inaugural address will go 
down as perhaps his greatest public speech. And, as Jim said, 
the promotion of democracy and human rights overseas is a 
longstanding element of American foreign policy.
    But, as the other panelists have also said, we can't 
reinvent these other countries in our own image. It is not 
going to be Jeffersonian democracy throughout the rest of the 
world. And, in fact, we have to pick and choose the means we 
use, the places we use. What we try to do in Saudi Arabia is 
not going to be the same as in Iraq or Belarus or China or 
other places.
    But what I would like us to try to adopt is to have a 
little bit more patience and a lot more confidence that this is 
a universal value, it is not an American value, that most 
people want to have dignity in their lives, whether it is 
expressed as liberty or freedom or democracy or what have you. 
They want to be able to live safely, with accountable 
government, with decent schooling and education and health care 
for themselves and their family. That is something that is, I 
think, a universal aspiration. And when we try to use a cookie-
cutter approach and impose it on other people, I think we run 
huge risks.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before us today.
    I completely agree with you that our number-one national 
security issue is this whole fiscal responsibility or lack of 
responsibility in Washington, D.C. And I, as a former 
investment banker, have been very worried about this issue. I 
remember in 2000 when we started with President Bush, and the 
people will remember, I think it was in the February-March-
April time frame, we were having discussions in the front page 
of the Wall Street Journal about what would the Government 
really look like without Government debt, without T-bills and 
T-bonds, and was that really something that we wanted to do. 
And now we find ourselves in completely the opposite direction. 
And the war is, of course, just a very, very small piece of 
that, although it is a bleeding that continues to go on.
    So I guess my question to you is, what would be the format 
or the forum in which we could begin to really address this 
broader issue with the American people? Because they, I 
believe, aside from now suffering individually from lack of 
savings or costs going up with respect to fuel and other 
issues, I don't really think that they understand just how bad 
this fiscal foundation is of our United States.
    So I guess, as a lot of you are academics, what would you 
suggest as a forum, or how do we begin--and it is a lot of 
political risk. I mean, every individual Congressperson goes 
back to their district and says, ``Things are going to get 
better. Don't worry.'' But the reality is that they are so 
broad, the entitlement issue is so broad, the energy 
independence issue is so long-term, could be, although I 
believe Californians are much further ahead in solving that 
issue for us.
    But what would you say would be the forum for that?
    And then the second question would be, how can we on the 
defense committee, I mean, what is it that you think we should 
be doing in the area that we control, i.e., our military and 
how we use it, to begin to address this larger issue that I 
believe--I don't know whose testimony I have in front of me, 
where you talk about the five or six different things that we 
need to do. And I think the theme is throughout all of your 
written testimonies.
    So the first question, what kind of forum do we use to 
really talk to the American people about the hole that we are 
in? And, second, what can we do as members of the military 
committee? And it is up for grabs to anybody.
    Dr. Reiss. I think you have a wonderful platform and a 
wonderful megaphone, and you can hold hearings.
    And I spent a long time negotiating with both North Korea 
and with the political parties in Northern Ireland, and I 
always saw my first job was to educate and explain, not to 
negotiate. And I think that you need to educate and you need to 
explain to the American people exactly what the balance sheet 
looks like right now.
    You know, if this was a business and you were coming in, 
you would do an audit. You would do a strategic audit of the 
whole business and find out where is the money coming in, where 
is it going out, where can you plug holes, where can you get 
more revenue? Doing a strategic audit for the U.S. Government, 
for the new Administration coming in, may be one way to do it.
    But you need to explain what the balance sheet looks like 
to the American people, whether it is in the military budget or 
whether it is in the other accounts. And I think that there has 
been no coordination in advance among any of us, that I am 
aware of, and yet I am pretty impressed that there is a large 
degree of overlap in terms of how we are analyzing the 
challenge.
    And it faces all of us, but you are the public 
representatives, and it is your responsibility not just to 
respond to the American people but to lead us. And so I think 
that there is some political risk involved, but that is why you 
get paid the big bucks.
    Ms. Sanchez. Don't worry. I voted against a lot of things, 
like giving you $600 rebate checks when there is no money in 
the coffers. So I don't worry about it.
    Dr. Bacevich.
    Dr. Bacevich. Well, I don't fully understand the way the 
Congress works, but, I mean, it seems to me that one of the 
things you can do is try to break down those compartments. I 
mean, again, I don't know if this is feasible, but to insist 
that just because you are on a committee that is concerned with 
the Armed Forces that these other matters, like debt and 
dependency, somehow need to belong, to be owned by somebody 
else, because in terms of the long-term interests of the 
Nation, they do all come together to shape the problem.
    Now, specifically with regard to the matters under this 
committee's purview, it seems to me that one of the big 
questions that I don't think has been fully engaged with has to 
do with the fundamental purpose of the United States military 
as we try to reshape it and configure it.
    To oversimplify, if we look at the pre-9/11 era, the first 
nine months of the Bush Administration and of Mr. Rumsfeld's 
tenure, the bumper sticker to describe how we were going to 
reshape U.S. forces was transformation. It implied a particular 
emphasis on technology, on long-range strike, probably a bias 
in favor of air and naval as opposed to ground troops.
    Since the invasion of Iraq, since the rise of General 
Petraeus and the rediscovery of counterinsurgency operations 
or, as I think they are now called, stability operations, we 
are, sort of, drifting toward a model of U.S. forces that now 
places greater emphasis on boots on the ground, on long-term, 
protracted presence and engagement, on nation-building, not 
simply warfighting.
    I think a fundamental question as we look to--we must look 
to--the post-Iraq era is, which of those two models really is 
going to help us think about the future of U.S. forces? Or is 
there a third model? And we can't do both. Because to do both I 
think is utterly unaffordable. So what is the shape and purpose 
of the United States military as we look out 10 years or 20 
years?
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    David Walker has resigned as the Comptroller General. He is 
now the CEO of the Peter Peterson Foundation. Peterson has 
committed $1 billion of his personal fortune to educate the 
American people about the imminent financial crisis that we 
face in our country.
    This is a huge challenge, and it may, in fact, be 
insurmountable if we don't have a proper policy relative to 
another crisis we face, and that is the energy crisis. The two 
of you mentioned energy specifically, and the third of you 
mentioned scarcities in our country, and energy is one of those 
scarcities.
    There is a new mantra now: Drill now, drill more, pay less, 
to hell with our kids and our grandkids.
    Oil is not an infinite resource; it is finite. It will run 
down, and it will run out. We reached our maximum capability to 
produce oil in our country in 1970. No matter what we have done 
since then, we have produced less oil every year, year after 
year. We have drilled more wells than all the rest of the world 
put together, and we now produce half the oil than we did in 
1970.
    The same man that correctly predicted that 14 years before 
it happened predicted the world would be reaching its maximum 
production of oil now. The International Energy Agency (IEA) 
and the Energy Information Administration (EIA) have oil 
production in the world flat for the last 36 months, while oil 
has risen from $52 a barrel to $146 a barrel.
    We have no national energy policy. What is going to have to 
happen before the American people and our leaders recognize 
that it is a huge, huge challenge? You are not going to drill 
your way out of this. You are not going to solve it with 
immediately turning to alternatives. What is going to have to 
happen before we recognize the magnitude of this challenge?
    Dr. Posen. I have a little pet peeve here about oil, and I 
don't know that it would help much, but it might help a little 
bit.
    I think, without quite thinking it through, a big part of 
America's energy security, and particularly oil security, 
policy is nested in the Department of Defense in the fact of 
the enormous American military commitment to the Persian Gulf, 
which, from my point of view, has no other rationale other than 
oil.
    The magnitude of this commitment is not well-understood, 
and I think it is actually quite hard. I have tried to find 
decent academic articles that will tell you what exactly it is 
we are spending in the Persian Gulf.
    DOD spends a lot of money every year, and my own guess is 
that a big, big chunk of it is going in this direction. And we 
should be asking ourselves, do we want a big chunk of America's 
energy security policy to be nested in the Pentagon?
    And to even begin to offer a rational answer to that 
question, we need to have a relatively defensible estimate for 
exactly what we are spending each year. I am not just counting 
the Iraq war. I am talking about what we have been spending 
every year, certainly since Saddam Hussein's first defeat at 
our hands, what we have been spending every year to make 
ourselves ready for war in the Gulf.
    It doesn't mean we shouldn't do it maybe we should. But it 
would be useful to know what those figures are, because maybe 
some of that money could be better spent going to some other 
energy sources and some other way of providing energy security 
that might have a longer-term payoff.
    Ambassador Dobbins. Well, $4-a-gallon oil or gas has 
already had a quite beneficial effect on conservation, carbon 
emissions. And one probably impolitic approach is to determine 
that we should not want the price of gas to go down. That, as 
the external price goes down, taxes should rise to keep the 
price at the pump where it is now, which is still lower than 
most other countries.
    And most other countries have had this approach for a long 
time--that is, very high taxes, which encourage conservation, 
smaller cars, more efficient cars, et cetera, more efficient 
homes. And there is no hope for America unless we are prepared 
to adopt that philosophy.
    Dr. Reiss. If I can just add quickly to that. To answer 
your question, I wonder sometimes whether we can mobilize 
ourselves politically in the absence of a crisis. And there is 
a joke in this town that the Government only knows two speeds, 
complacency and panic. And unless there is another opportunity, 
short of a crisis, that is hard for me to imagine, it is hard 
to see how we are going to mobilize the political will, given 
all the vested interests in things the way they currently are.
    And I agree with what Jim was saying. You want to make sure 
that the revenues from gasoline stay in the United States and 
don't go to a lot of our adversaries around the world, where 
they are currently going. But that is not sufficient. You then 
need a government policy that is going to recycle those dollars 
into science and technology and research and development with 
new alternative energy sources.
    And I am not the first one to say that we should be aiming 
to be the world's leader in energy technologies for the 21st 
century. We have the ability in our universities, in our best 
companies. We have the brain power. We just don't have the 
political willpower right now.
    But I think that is clearly the way to go. And that is what 
is going to sustain America's strength, I think, long term.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman. And I 
certainly appreciate this hearing. There aren't too many 
opportunities, as you well know, for us to have these kinds of 
discussions, and it is a good one to have.
    One of the things that we have done on the committee is 
talk a lot about interagency coordination. And I wonder if you 
could perhaps put that in some of the context in which you are 
speaking.
    We know that the tools of government were not used in Iraq 
or Afghanistan the way they could have been. We came pretty 
late to the table with that. A little more of that is happening 
today.
    I think that you have certainly touched, Ambassador 
Dobbins, on the idea that people are probably going to be 
pretty tired of nation-building. They want, as Tom Friedman has 
said, they want nation-building, but they want it here at home.
    And how can we better talk about the need to use all of 
these tools better in a way that might, in fact, engage the 
American public?
    Ambassador Dobbins. I think that the current 
Administration's performance has significantly improved in this 
respect. I think you see good civil-military relations and a 
substantial civilian role in both Afghanistan and Iraq. I think 
the White House is functioning quite successfully as an 
integrator of policy. And I think you see the effects of this 
improvement in the turnaround that we have seen in Iraq.
    We have recently completed a study looking at how 
Presidential leadership and interagency structures and 
decision-making processes affect outcomes in America's national 
security efforts abroad. And the conclusion is that some 
Administrations are better than others, but all of them get 
better over time. And then that improvement doesn't transfer to 
their successors, that there are abrupt discontinuities, in 
terms of expertise and competence, when Administrations change, 
particularly when they are accompanied by changes in party.
    And, therefore, if you are looking at a place to fix the 
system, fixing it at the transition point is the point at which 
you are likely to have maximum effect, because they all do get 
better. And I would suggest that there are several ways of 
doing that.
    First, it would help to have legislation that set out 
clearer guidelines on what State, AID, Defense and others are 
supposed to be doing. The Administrations need some 
flexibility, but completely reinventing the interagency 
division of labor every 4 or 8 years is very disruptive, 
because no department is going to invest in the long-term 
personnel and other capacities that are needed to perform 
functions that may be taken away from them and given to some 
other agency. And we have seen repeated shifts between State 
and Defense, really, since 1989, as to who does what when they 
are jointly engaged in some constituency.
    Second, I think that just as our military are told that if 
you want to reach general rank, you have to have served in 
another armed service other than the one you are in, or in a 
joint position, telling members of the Foreign Service and the 
Civil Service that they are not going to get to the Senior 
Foreign Service or the Senior Civil Service unless they have 
served in another national security agency or in a White House 
or joint position would be an appropriate way of improving 
jointness at the interagency level.
    And, finally, I think that the number of political 
appointees that are now transitioned every 4 or 8 years as a 
new Administration takes office--we are now up to 6,000 or so 
people change when a new Administration takes office--this is 
very disruptive. It demoralizes the career service. It creates 
an ideological layer between the professionals at the bottom 
and the policymakers who are appropriately political at the 
top.
    And I think setting some limits on that and perhaps 
establishing that a certain proportion of sub-Cabinet positions 
and White House staff positions, including particularly 
national security positions, National Security Council staff 
positions, should be career would be another way of bridging 
these abrupt discontinuities that occur at transitions.
    Mrs. Davis of California. How important is all that to this 
grand strategy?
    And I think my follow-up question was going to be really on 
the international level, as well, in terms of trying to have a 
counterpart to that.
    Ambassador Dobbins. I think most people would agree that 
the major failures of the current Administration were the 
failures of competence in the early years. You can argue 
whether it was a good idea or not to have invaded Iraq. But 
whether or not it was a good idea, there were many multiple 
failures, which the Army has recently documented and any number 
of academics have documented, which are purely questions of 
competence and expertise.
    Mrs. Davis of California. Is there any disagreement with 
that issue, in terms of interagency, on the panel?
    Dr. Posen. Well, just to, at least a footnote. It matters 
more to Ambassador Dobbins's grand strategy than it does to 
mine, the interagency process get itself sorted.
    You know, as everyone, including me, agrees, these state-
building or nation-building or peace enforcement or 
counterinsurgency projects are immensely complex military, 
political, economic activities, and all kinds of expertise is 
required.
    And I am guessing that one of the reasons it looks better 
at the end is because of actual craft knowledge that is gained 
on the ground. I am actually very dubious that this can somehow 
be structured in before you can get into one of these projects. 
My own guess is that most of these projects are going to go 
badly for several years, no matter what, no matter what you do.
    Now, I subscribe to a grand strategy that wants to do a 
less of this. Because I want to do a lot less of it, then I 
need lots less of it. And if you have doubts about our ability 
to become real experts at this fine orchestration of multiple 
talents, then it should make you question the viability of the 
entire grand strategy that, sort of, drags you into these 
projects.
    Dr. Reiss. Just to address very quickly on this point. One 
thing that would be very useful for whatever grand strategy is 
adopted would be to revise legislation to allow statutorily the 
Secretary of the Treasury to become a member of the National 
Security Council.
    Right now, the Secretary of the Treasury is invited to 
these meetings according to the discretion of the President. 
But statutorily, I would argue, especially with today's world, 
the importance of globalization, trade, commerce and finance 
and that interconnectedness with all these other issues, the 
Treasury Secretary needs a seat at that table in order to 
empower him or her going forward and to make sure that Treasury 
has an input into these deliberations.
    Dr. Snyder. We are now going to the members in the order in 
which they arrived after the gavel. It will be Mr. Sestak, 
followed by Mr. Jones, then Mr. Conaway.
    Mr. Sestak for five minutes.
    Mr. Sestak. All right. Thanks, Mr. Chairman.
    I heard a couple things today. One was that national 
security begins at home; we need to address the fiscal issues. 
The other one I heard is that there is a destructive phenomenon 
going around globalization; it is somewhat disturbing out 
there.
    And I also heard that we need to reach out every so often, 
to Dr. Posen's points and others, that we have to do something 
every so often when people are driving a car the wrong way. In 
fact, Mr. Ambassador pointed out, however, recently we have let 
Egypt, Turkey, Qatar, someone else, the European Union handle 
affairs in the Middle East, they are deciding where the car is 
to go.
    My question is, or I guess my assessment has been, up to 
now, and I would like a comment, is that I have seen a need for 
some template, grand strategy, call it what you might, that 
appears to be less in this grand strategy world now than ever 
before, particularly as we have walked away, for good or bad, 
from past templates--the Anti-Ballistic Missile (ABM) treaty, 
CBC protocol, Kyoto treaty, International Court of Justice.
    So that U.S. leadership has been absent, not just in these 
individual cases you point out, Mr. Ambassador, but it has been 
absent from--what we did after World War II is constructed 
consciously 63 defense agreements around the world--the 
International Monetary Fund (IMF), the United Nations (U.N.).
    My question is not what should that be. I don't think 
anybody here knows exactly. But in a world that is increasingly 
destructive, in terms of blurring the lines between what used 
to be foreign policy and domestic policy, because we can't fix 
our fiscal house without dealing with globalization, this 
construction needed, in my opinion, of the right types of 
international entities, which U.S. should influence for its 
self-interest.
    What has been, in your viewpoint, the impact of not having 
that upon here in the decision-making? I am not interested in 
what the construct is; but I am interested, if you Congress 
should hold up some national mirror to the Nation and say, here 
is what is attendant to what we need, I think they would be 
more interested in knowing what happens here at home in 
decision-making if you don't have it?
    One might argue that the Joint Chiefs of Staff didn't have 
a template in this new genre of how to argue for the right or 
wrong of Iraq. Some might argue that when the Pentagon sends 
over here something called a conventional Trident missile to be 
stuck on a nuclear submarine with 23 other similar-looking 
missiles that are all nuclear-armed, that there is no arms 
control template to argue that. We vote for it, but we don't 
have this deep, thorough discussion that, obviously, Congress 
probably hasn't had in 10 years until this has come up.
    I am interested, if you could quickly, what is the impact 
if we don't have it upon decision-making policy and decision-
makers that don't have such a template to think about this 
national security strategy that no longer really has borders 
between us and overseas?
    If you could, just each.
    Dr. Bacevich. I am not sure I can answer your question in a 
satisfactory way. However, it does seem to me that, even if 
there is no construct, there at least ought to be the 
opportunity now to try to divine in a nonpartisan way what are 
the lessons of the Iraq war or the lessons of the global war on 
terror. And if we can identify those lessons, those lessons at 
least provide the basis for some kind of a construct. Let me 
illustrate what I mean with a specific example.
    I think in the decade after the end of the Cold War there 
was a bipartisan--and I mean Republican and Democratic, 
civilian, military--intoxication with what seemed to be the 
limitless capacity of American power and especially American 
military power.
    I think the greatest expression of that was this conception 
conceived in the Pentagon in the 1990's called ``full-spectrum 
dominance,'' in which the Pentagon claimed that by tapping both 
the great expertise of U.S. forces and the potential of 
information technology, the United States was going to be able 
to be dominant in all forms of warfare, and that this kind of 
an idea had a certain amount of purchase among national 
security experts. It was false, it was silly, it was stupid, 
and it has been demolished by the events on the ground in 
Afghanistan and Iraq.
    So what we ought to do, it seems to me, at this juncture, 
even if we can't agree on the label that will describe our 
grand strategy going forward, we at least ought to confront the 
actual lessons and the limitations of our capacity--and, again, 
I would emphasize, especially our military capacity. And at 
least the recognition of those lessons would provide some basis 
for going forward and trying to think about what the construct 
ought to be.
    Dr. Snyder. Mr. Conaway for five minutes.
    Mr. Conaway. Well, thank you, gentlemen, for coming today. 
Obviously very bright, articulate folks.
    My one contribution would be that we need a better name. 
``Grand strategy'' has a pluralistic, kind of, overarching, 
kind of, ugly phrase, to me, personally, that, Mr. Chairman, 
maybe we can figure out something else to call whatever it is 
we are talking about. Because I am put off, right off the bat, 
just by the phrase.
    Dr. Snyder. We could have met in a solarium, but that 
wouldn't have worked out so well.
    Mr. Conaway. You know, hindsight is wonderful, and I guess 
you guys get paid for looking backwards. And we are trying to 
look forward with this, whatever we call this piece.
    I was particularly impressed that it is dominated by the 
fact that our internal threats probably--not probably--do 
outweigh any external threats to this country. If some nation-
state would threaten us, I suspect we would galvanize 
immediately. World opinion or U.S. opinion, following 9/11, 
although it was a relatively huge attack, but on the grand 
scale of the world wars it was a pretty small pop, but, you 
know, this country rallied quickly. We don't see that same kind 
of spirit rallying behind cuts in Federal Government spending, 
raising taxes, whatever your solution. And those of us on our 
side of the aisle think this Federal Government spends too much 
money.
    I would be interested in where you would cut spending. Dr. 
Reiss, you might want to start this, because your five points 
circulated around national debt and government reform and a 
couple other things. Where would you whack a significant chunk 
off Federal spending?
    Dr. Reiss. Well, we are quickly----
    Mr. Conaway. It is easy to talk about reform----
    Dr. Reiss. We are quickly going to exceed my competence on 
the domestic side of the ledger.
    I think what I would want to do would be, first of all, to 
not identify any single thing. I think probably there are going 
to need to be hits taken across the board.
    But rather than be arbitrary, I think that there needs to 
be a process so that everybody can see transparently what the 
balance account looks like, and then you are going to have to 
have a national conversation. And it is going to be messy, and 
it is going to take a while, but I don't see any alternative, 
unless we have another crisis again, in which case anything is 
possible. I don't think any of us want to wait for that to 
happen. We hope that that never happens.
    So I am afraid I can't give you very many specifics. I am 
kind of like a general practitioner here, rather than--I think 
you need a specialist to try and examine this patient.
    Ambassador Dobbins. Well, I think the defense budget is the 
largest component of discretionary spending by far, if I 
understand correctly. And, therefore, to the degree that this 
committee were to agree with the proposition which all of us 
here in one form or another have stated, which is that 
balancing the budget and getting our domestic fiscal house in 
order is the most important national security challenge we face 
today, and were to offer to the other committees of Congress 
who are responsible for other forms of discretionary spending a 
willingness to join in a broader effort to reduce those 
deficits, I think that would be a significant contribution.
    Dr. Bacevich. I mean, it seems to me that, again, it 
depends on your assumptions or your expectations. To go back to 
the earlier comment about do we need Donald Rumsfeld's high-
tech, transformed military, or do we need a military that is 
configured to do stability operations, how you answer that 
question suggests where you make the cuts.
    If, indeed, the future of the U.S. military is to be more 
and more stability operations, then the current expansion of 
the Army and the Marine Corps, which I think is supposed to be 
92,000 over 5 years, is inadequate, if we are going to have 
more Iraqs and Afghanistans in our future. And if that is going 
to be the case, then we cut the F-22 and we get rid of a couple 
of carrier battle groups from the Navy, and that is where the 
budget cuts come from.
    If your military is the transformed, high-tech military, it 
is not going to be, in particular, focused on stability 
operations, then the expanded expansion of 92,000 more ground 
troops is probably unnecessary, and we can make cuts there.
    Dr. Posen. I will share the humility expressed by my 
colleagues. But I think that we are talking about big numbers 
here, so it is easy to pick on one particular problem in DOD 
that one or the other of us doesn't like. I think we have to, 
sort of, begin to confront the fact that defense spending as a 
share of GDP in this country has to go back under three 
percent. It is hovering around four now. This is a big and 
wrenching change for DOD and requires lots of cuts across the 
board.
    Mr. Conaway. Mr. Chairman, I suggest that the panel 
adequately expressed what we face every day, that nobody wants 
to be the first guy to raise their hand to take those cuts in 
spending.
    So thank you, panelists.
    Dr. Snyder. In Arkansas, we look at cutting a lot of 
projects in Texas. But that doesn't seem to work out so well 
with the Texas delegation.
    Mr. Conaway. Big target.
    Dr. Snyder. Mr. Skelton.
    The Chairman. First, let me thank you for your excellent 
testimony today. We are very appreciative.
    It seems that in recent years we have had two international 
traumas to our country. One, of course, is 9/11, the other one 
is Iraq, both in the Middle East. They seem to have dominated 
international thoughts on where we are as a country. And we 
seem to be measuring ourselves in relation to the Middle East, 
when, in truth and fact, there is a lot of world we have not 
adequately addressed.
    What, of course, we all want is a return to our country 
being not only respected but admired. And as a result of 
particularly the actions in Iraq, we have lost some friends and 
standing with long-time allies.
    But I have two questions, in listening to your testimony.
    Is it even possible to derive a singular American strategy 
for the days ahead?
    And the second question is this. Fast-forward to January 
the 20th. The phone rings, it is the President of the United 
States. And he says, ``You are the expert. I would like for you 
to write a two-page paper for me and have it to me in 7 days, 
because I want to make a speech on national strategy on the 8th 
day. Would you please get that paper to me?'' And being the 
President of the United States, you would say, ``I would be 
glad to.'' And then you start struggling with that two-page 
paper.
    Just assume that telephone call has come in to you. Would 
you outline for us what you would put down on your two-page 
paper devising a strategy for the United States as will be 
enunciated in 8 days by the President of the United States?
    Dr. Bacevich.
    Dr. Bacevich. I think that my two-page memo would begin by 
saying that the global war on terror as a construct to frame 
our post-9/11 policies is deeply flawed, and that this new 
Administration intends to reject it. That the terror threat, 
the threat of violent Islamic radicalism is real, it will be 
persistent, but we have misconstrued it, and we have overstated 
it. That, in many respects, the catastrophe of 9/11 happened 
not because the adversary was cunning and strong, but because 
we had let our guard down; and that we will never do that 
again.
    And, therefore, when it comes to terror, I would subscribe 
strongly to some of the remarks of my colleagues, that rather 
than thinking in terms of war, rather than thinking that 
invading and occupying countries somehow is going to provide an 
antidote to terror, that we need to revive, revitalize, 
strengthen the so-called law enforcement approach.
    Having said that, it seems to me that, going forward, the 
essence of our grand strategy will be focused on reconstituting 
and husbanding American power, primarily economic power but 
also American military power. And it will be done with a 
general sense that the nexus of international politics in the 
21st century, which in the 20th century tended to be in Europe, 
is now decisively shifting toward Asia. And that our efforts, 
in terms of trying to shape the world beyond our borders, will 
focus primarily not on the greater Middle East, but will focus 
primarily on East Asia, where stability and openness are 
absolutely essential to the wellbeing of the United States over 
the next several decades.
    That would be what I would say.
    The Chairman. Thank you.
    Ambassador Dobbins. I am not sure that we are going to be 
able to replicate what we had during the Cold War, which was a 
national strategy that fit conveniently on a bumper sticker. We 
had ``containment and deterrence.'' And then, for the last 20 
years of the Cold War, we had ``containment, deterrence and 
detente.'' And that pretty much summed up a bipartisan approach 
to our main national security challenge, which was the Soviet 
Union.
    It is a more complex world today. If you had to put it on a 
bumper sticker, I would say ``inclusion.'' Our main objective 
ought to be to gradually include the emerging powers--or re-
emerging in the case of Russia--China, India, and of course the 
European Union in the international system, which we have done 
so much to build, in a system based on the rule of law and on 
institutional arrangements that channel competition among 
nations in constructive fashions.
    And to do that, we need to explain to the American people 
that we need to play by those rules ourselves, we need to 
belong to those institutions, we need to shape those 
institutions in order to bring these emerging powers into this.
    Now, if I was looking for a way of explaining this, I would 
definitely, as I think all of the panelists and many of the 
committee members have indicated, stress that national security 
begins at home.
    And I would go back and look at some of the rhetoric from 
President Eisenhower's Administration. You know, it was 
Eisenhower who ended the Korean War, imposed drastic reductions 
in the defense budget, talked about the dangers of the military 
industrial complex, and conducted what historians now regard as 
one of the most successful American presidencies in history. So 
I think going back and looking at how Eisenhower handled some 
of these tradeoffs between strength at home and strength abroad 
is worth doing.
    Dr. Posen. I am a great admirer of Eisenhower's defense 
strategy, as well.
    I would make only a few points to the President, bearing in 
mind that my two pages is not the political speech.
    One, the facts of the case: The U.S. is already enormously 
secure. We have spent the last 15 years trying to tell 
Americans that they are not, but we are. We have a quarter of 
gross world product. Our nearest competitor has less than half. 
We spend half of what the entire world spends on defense, and 
our military is really unchallengeable in normal, conventional, 
or nuclear war. We have a huge nuclear deterrent. We have big 
oceans to the east and west and weak, compliant neighbors to 
the north and south.
    So the first thing we have to do is do no harm. Our 
principle risk today are errors of commission, not errors of 
omission.
    Now, what do matter? What are the obvious threats? One, we 
have to keep an wary eye on the balance of power in the 
Eurasian land mass. That is why the United States waged the 
Cold War. That is why we waged World War II. That is why we 
waged World War I. The main reason why America goes abroad for 
big wars or big peacetime military operations is because of the 
possibility of a great military empire rising in Eurasia. That 
possibility isn't very great right now, but we always have to 
maintain the capability to thwart it.
    We have two other problems in the world today, new 
problems, threats to safety: They arise from terror, and they 
arise from nuclear proliferation, and some people fear the 
nexus of the two.
    We have to figure out a way to work those problems. But one 
of the things I think we have learned from the last few years 
is working those problems in a way that is designed to try and 
achieve 100 percent solutions ends up being extremely costly 
and probably undoable. This is an uncomfortable fact for 
Americans.
    So we have to do what we can to restrain the proliferation 
of nuclear weapons, but we have to maintain a strong nuclear 
deterrence so those that get them know that trying to threaten 
the United States is the most dangerous and crazy thing they 
can ever do.
    We have to do what we can to suppress terror, but 
suppression, not 100 percent victory, has to be the model. And 
we have to fight that battle in the back alleys and back 
streets of the world with the assistance of other intelligence 
agencies, other police forces of other countries who have at 
least as big an interest in stopping al Qaeda as we do.
    Dr. Reiss. I think the new American President next January 
is going to want to start redressing America's image in the 
world, which we all know is not what we would like it to be. 
And I think that there are five things that he would need to 
say, not really a grand strategy, perhaps more a combination of 
a strategy and shorter-term policy, but nonetheless would send 
a very positive signal to the world, would be that: The United 
States is going to take the lead now on climate change. We are 
not going to be in denial. We are not going to refuse to do 
this. We are actually going to be the world's leader in 
acknowledging this problem.
    Second, we are going to close Guantanamo and abide by the 
rule of law.
    Third, we are going to elevate the importance of the Middle 
East peace process, not episodically but on a consistent level, 
appointing a special envoy who will report directly to the 
President of the United States.
    Fourth, we will aggressively promote free trade agreements, 
trying to revive the Doha round, and try to pass through 
Congress the three Free Trade Agreements (FTAs) that are 
currently before it.
    And, fifth and finally, that there will be a much greater 
effort on national investment in research and technology for 
new energy technologies to make us, not energy-independent, 
because we are never going to be energy-independent, but rather 
what I would call energy-secure.
    And I think that alone would do wonders for reviving 
America's image throughout the world.
    The Chairman. Thank you.
    Dr. Snyder. Gentlemen, we are going to go around again, if 
you have the stamina here. And we will use the 5-minute clock.
    I appreciate you all's comments today and thoughts. I don't 
want you all to have to dwell on this any more than my wife and 
I do, but we currently have a two-year-old and she is pregnant 
with triplets. So our thinking about the future has passed the, 
``Oh, my God, I will never retire,'' to actually thinking about 
the future as all of us with children and grandchildren, and 
care about what America does.
    But it seems like what you all have talked about today in 
terms of, as you look ahead, to what you see as security 
threats is really a grand opportunity. I mean, the priorities 
that you are putting on your list, energy, security--and I 
prefer that term, too. We are always going to be a trading 
nation, and we shouldn't shy away from being a trading nation. 
We want security of price and security of supply, and make sure 
that it is a reasonable percentage of family income that every 
American pays for whatever kind of energy choices they make.
    But when we look at things to do in energy, things that are 
in conservation, in investments in new technologies, the 
economy, things that we can do in terms of dealing with our 
national debt, our long-term challenges of boomers that you all 
talked about, what you talked about, either Ambassador Dobbins 
or Dr. Posen, about the competency of government, the 
transition to new Administrations, dealing with all these kinds 
of things, in terms of focusing on diplomacy, making sure it is 
the quality that we want it to be.
    All of those things are under our control. These are all 
things that are under our control. It is a tremendous 
opportunity for us if we all buy into that these are the 
priorities that this Nation needs to undertake.
    A dramatic contrast with where we were during these periods 
after the Solarium Project and the strategies were developed 
where there were things that we could certainly do, and did, in 
terms of alliances and building up our forces and the 
tremendous investment in our military. But the reality is, a 
lot of what the future of the world had to hold was out of our 
control. And we saw that in Vietnam, and we saw that in North 
Korea, in the Korean Peninsula.
    So it seems to me that there is some tremendous 
opportunities here as you all describe what you see as the 
security challenges for this country.
    I wanted to talk about one specific issue, if I might, and 
it is a detail. Let's see, who mentioned it? One of you talked 
about the absence--oh, I know, it was Dr. Posen. He talked 
about language. I think it is on page 93.
    Yeah, page 93, Dr. Posen, I am quoting from you now, you 
say, ``Despite the great power of the United States, its 
national security establishment is particularly ill-suited to a 
strategy that focuses so heavily on intervention in the 
internal political affairs of others. The U.S. national 
security establishment, including intelligence agencies and the 
State Department, remain short on individuals who understand 
other countries and their cultures and speak their languages.''
    Now, I think from your perspective you would say what you 
said to Mrs. Davis: If you have a policy of restraint, perhaps 
you don't need as many people. I would also argue, though, 
along with what you all have said about developing the American 
economy, if we want to compete in this world, our kids and our 
adults today had better be prepared to understand cultures and 
understand languages, or otherwise we don't compete.
    Would you all respond to the specific niche question of 
what I see, what a lot of people see, as the lack of foreign 
language expertise and its accompanying lack of cultural 
sensitivity?
    Dr. Reiss.
    Dr. Reiss. I am very excited about this question, because I 
have given it a lot of thought----
    Dr. Snyder. Well, I was excited to ask it, Dr. Reiss. Carry 
on.
    Dr. Reiss [continuing]. When I was in the Government and 
now in academia.
    You use as a reference point the launch of Sputnik and how 
the United States responded after that shock to our American 
political system, and you look at the legislation that Congress 
passed. Not just a bump-up in the military budget, but also a 
National Education Act that put in the hands of American 
students grants for them to study the Russian language, Russian 
history, Russian politics, aspects of Russian society that paid 
dividends throughout the rest of the Cold War.
    You then contrast that with what happened after 9/11. And 
there were some attempts by the House to try and pass some 
modest language programs. There was some, again, a modest bump-
up in the Boren program. But, again, given the need for us to 
understand this strategic part of the world, the greater Middle 
East, the different languages involved, the need for 
universities to be able to get qualified teachers to teach our 
students, the response has been wholly inadequate.
    And it is not just in the State Department and the 
military; I think it is throughout our entire society. So that 
we are not doing a very good job in terms of responding to, I 
think, a heartfelt strategic need right now.
    And even if you don't think that military intervention is 
going to be the right way to go in these situations, and I 
think many of us would agree with that, if we are going to win 
hearts and minds, we have to be able to have conversations with 
these people. If we don't speak the language, we literally have 
nothing to say to them.
    And we just can't expect people to speak English; and if 
they don't speak English, they must not have anything 
worthwhile to say to us. We have to be able to understand not 
just Arabic but all the different dialects and languages in 
this part of the world, because we are going to be there for a 
very long time.
    Ambassador Dobbins. I agree in general, but let me be a 
little contrarian. I think that the problem, particularly in 
the early years of this decade, was less a problem of supply 
than demand. That is to say, the Defense Department, the 
military, the Administration simply weren't interested in 
tapping the sources of expertise that was available.
    This has changed dramatically. You know, today we are 
deploying anthropologists with every brigade we send to 
Afghanistan and Iraq to advise the commander on the human 
terrain in which he is operating. This is a big change, and it 
is just one example of the ways that the State Department, the 
Defense Department and the White House are beginning to look to 
external sources of expertise and tap them. But back in 2001, 
2002, 2003, the Defense Department wasn't even interested in 
asking the State Department for advice, let alone academics 
from outside the Government.
    So it won't do us any good to up our language training if 
we don't have the demand side. If you don't have enough foreign 
service officer positions funded that require language as a 
prerequisite, It doesn't make any difference matter how many 
graduates you have. The fact is that, with our immigrant 
population, we have an advantage over most countries of having 
native speakers of almost any language in the world in large 
numbers, including Arabic.
    So, you know, I think that we need to fix the demand side 
as well as the supply side.
    Dr. Snyder. Mr. Akin, for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    I appreciate a lot of the different points you are making. 
And it seems to me that a good foreign policy--in the political 
world, we go back and tell our constituents, ``I am fighting 
for you in Washington, D.C.'' We don't do any fighting down 
here. The things that we accomplish are all based on persuasion 
and salesmanship. Even if you look at the bills that we pass, 
there is very little that we accomplish that has not had to 
have been really agreed to by both political parties. Any time, 
in the political world, one party tries to shove something down 
everybody's throat, it usually doesn't get through the system.
    So my sense is that the way that we approach a lot of these 
things is pretty much more--I like the idea of exporting 
freedom, but I agree with you, you can't really export it; all 
you can do is encourage people. And it seems to me that the 
emphasis should be on understanding their cultures and saying, 
``Boy, we have a lot of problems in our own country too, but 
here are some things that worked for us when we ran into some 
similar problems,'' and that sort of a friendship kind of 
reaching out a hand and working with foreign cultures, 
understanding them.
    This committee has done a great deal of work, a lot of 
hearings, years' worth of hearings, on basically projecting the 
Goldwater-Nichols jointness concept to a much broader kind of 
context. I think one thing that was very exciting to us on this 
committee was we have some real left-wingers and right-wingers 
and conservatives and liberals and Republicans and Democrats, 
and we all had a good sense that this was a project we all saw 
the need for. There was a good sense of cooperation that this 
is a direction that we should be going. Interesting that DOD 
was saying, ``We think the State Department budget should be 
bigger.'' Kind of interesting.
    My question to you is--and maybe you would reject it, that 
we can't really know this for sure. But, as we took a look 
after September 11th at threats, what we realized was the most 
dangerous thing to us is a nation-state that has the funding 
mechanism of a nation-state that concentrates in developing 
weapons of mass destruction and is determined that they are 
going to use them if they can get a hold of them.
    Now, you might argue that we don't have such a nation-state 
in existence. But what we found was it is very hard to develop 
nuclear weapons if you are just a bunch of terrorists running 
around from camp to camp. You need to have a source of oil or 
something to pay for the amount of research and technology that 
goes into making a significant threat, particularly asymmetric 
kinds of threats.
    But let's say that you are the President and you are stuck 
with a situation where you believe there is some country that 
truly is run by nutcases and that they have enough money to 
develop nuclear weapons and that they are very close to having 
them and that they will use them. If you will grant those 
assumptions. Now we are confronted with a pretty sticky wicket. 
How do you proceed under those conditions?
    Because those of us that voted here, the U.S. Congress, as 
you know, voted almost unanimously to go into Iraq, because we 
thought that those conditions were in existence in Iraq when we 
made that decision. Let's say that we had been right. What do 
you do?
    Ambassador Dobbins. Well, one of the questions you have to 
ask yourself is whether the regime that you are concerned about 
is more irrational than Joe Stalin or Mao Zedong. Where are 
they on that scale? After all, Mao sent a million troops to 
confront us in Korea and put his own people through hell with 
the cultural revolution, and Stalin conducted genocide on a far 
wider scale than even Adolph Hitler. And yet, we found them 
sufficiently rational actors. So a combination of containment, 
deterrence and detente was our response. So you have to go 
pretty high beyond that threshold before those aren't the right 
answers.
    And if you are beyond that threshold, then coercive 
diplomacy and declaring preemptive doctrine probably isn't very 
useful, because if the person is so irrational, those probably 
aren't going to sufficiently correct his behavior. And so, you 
know, maybe invasion is the right answer, but that doesn't mean 
having a doctrine of preemption is a good way of dealing with 
the generic problem of nuclear proliferation.
    Mr. Akin. Anybody else? Or take the other one, China 
invades Taiwan. What are you going to do?
    Dr. Posen. On your nuclear question, I couldn't add a 
single thing to what Ambassador Dobbins said. I mean, I think 
agree with him, sort of, 110 percent. I mean, one can always 
define a problem in such a way that the answer is, sort of, 
inevitable. But we should set a fairly high bar to convince 
ourselves that we are dealing with undeterrable countries.
    Now, we can always imagine a set of facts that will make 
almost any of us deviate from our standard policy line. So I 
think buried in your question is some deeper question about how 
we do these assessments, what would convince us that the 
particular actor is undeterrable.
    Mr. Akin. I was asking the question, recognizing you are 
swallowing a very big premise. And that is one of those things. 
But somewhere along the line, when you are a CEO--and we have 
to make those decisions when a vote comes on the floor. But I 
think most of us are pretty sensitive to that. You don't jump 
into it quickly.
    Thank you.
    Dr. Snyder. Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    I am sorry that I had to leave to go to another committee 
hearing. And this is, I think, extremely informative. And I 
commend Chairman Snyder, Ranking Member Akin and Chairman 
Skelton for being with us here earlier. It is a very important 
discussion.
    Dr. Gingrey [continuing]. I guess the one question I would 
like to ask--and hopefully it has not already been addressed--
we talk about the development of our grand strategy, and we 
have talked about a number of things. Before I left, I heard a 
number of you comment on internal strategy and the importance 
of getting our own house in order before we could really have 
any grand strategy that was applicable to the nations of the 
world.
    I want to know if you can describe for us the grand 
strategies of some of these other nations, such as China, 
India, Russia, Britain, Japan and, indeed, Iran. Are their 
grand strategies explicitly declared? Or do we understand them 
implicitly as a result of their actions and what principally 
influences their strategies?
    Maybe you can also touch on how much information we really 
should be sharing with the general public. I think maybe a 
grand strategy from the 30,000-foot level, an overarching 
explanation, but certainly I would be concerned about sharing 
too much detail on how our grand strategy meshes or, indeed, 
conflicts with the grand strategy of these other countries, 
just a few of whom I mentioned by name.
    So any one of the four of you who wants to take that on, go 
ahead.
    Dr. Posen. Well, it is not always true. And in fact it is 
mostly untrue that states develop clear and coherent grand 
strategies and state them publicly. Many of us are sort of 
axiomatical about the grand strategy of the Eisenhower 
Administration, and a good bit of it could have been divined 
from public statements. But the guts of it remained in a 
national security document; I think it was NCS 162, and I 
believe that document remained classified until many years 
thereafter.
    It was quite common during the Cold War to keep much of it 
secret, and I think a lot of that secrecy had to do with the 
competition inherent in international politics. The trade-off 
between the values and the gains of having a clearly stated 
grand strategy in public and the possible risks of telling 
adversaries too much always has to be treated. You have to be 
self-conscious about that.
    Second, sometimes countries have grand strategies, but you 
know, they are not written down in one place. And you are 
looking for kind of a main line of advance, you know, a set of 
basic principles. And I think that would be true right now of 
most of the countries you are talking about; I am not sure you 
can find a single written document for one of those countries 
in public.
    You do find them from time to time. Just as an example, 
when I first started in this business, I tried to figure out 
what Israeli grand strategy was, and it wasn't written down 
anywhere. So I collaborated with a fellow one summer at the 
RAND Corporation, and we managed to assemble what we thought 
was basic outlines of their grand strategy. The document was 
very popular in Israel because they had nothing to talk about, 
so they essentially used ours.
    I think you are on to something here. But it is a good idea 
to start out with the premise there is one and see somehow if 
you can fill in the blanks. My own view is that most countries' 
grand strategies, first and foremost, arise from their 
international situation. And by their international situation, 
we are talking about, what is their power position relative to 
others? What big interests, conflicts do they have with others? 
What is the geography around their country? And in many 
countries, something that we know less about is the ethnography 
in their own country because many countries have different 
ethnic groups living in different parts of their countries, and 
they have to worry about them together.
    So China today, we think of China being a strong and 
growing country that is interested, in some sense, in 
challenging American dominance in that part of the world, in 
the first instance, trying to develop some regional military 
capability, maybe some regional denial capabilities.
    But we also should understand that China has its own 
concerns. You know, out at the other end of China, there are 
many disparate ethnic groups. Keeping those ethnic groups under 
some kind of control is a big problem for them; and it seems to 
be a source of conservatism in their grand strategy because 
when they get too adventurous, they have problems.
    But that is just a kind of example of how it works.
    Dr. Gingrey. Dr. Posen, I am about to run out of time and 
maybe one of the others would like to comment.
    Dr. Bacevich. I would want to emphasize, I think it is 
absolutely imperative for this strategy, whatever it is, to be 
explained to the American people, because if they haven't 
bought into it, it is not going to happen.
    We have talked about the strategy of containment. Kennan's 
foreign affairs article, President Truman's speech where he 
enunciated the Truman Doctrine, Secretary Marshall's speech 
where he enunciated the Marshall Plan. These speeches were 
really the effort to explain, to--and if you want to put it 
crudely--sell the American people on the idea of containment. 
If they hadn't have bought it, it wouldn't have worked.
    In particular, I would say today, if there is going to be a 
new grand strategy, it is going to have to be explained and 
sold, because any new grand strategy that focuses on getting 
our house in order--talk about energy security and the like--is 
going to require near-term sacrifice by us; and that is going 
to have to be explained in great detail in order to make it 
palatable.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much. And, again, I 
want to compliment you for this hearing. I have been looking 
forward to something like this for a long time.
    I sit here in great amazement. Are we at a point in the 
history of this country that we don't need to have a grand 
strategy for the world? Is what we need a grand strategy to 
rebuild America? I think it is amazing.
    I regret that I voted to give the President the authority 
to go into Iraq. It was a failed policy to begin with. I bought 
what I was sold, I will leave it at that.
    What I see happening is that in this country, today, we 
cannot be seen as a superpower. We are borrowing money from the 
Chinese to pay our bills; we are borrowing money from Japan. 
You have all acknowledged this. I am not telling you anything 
you haven't said. The trade deficit with China is $252 billion. 
And yet we in Congress are trying to deal with some very 
difficult issues that there are no easy answers to. And I hope 
the next President, whoever that is, Mr. Obama or Mr. McCain, 
will concentrate on America and only do the things that have to 
be done militarily when we are attacked, or if it is in the 
national security interests of this country.
    But for this country to continue to believe--I will tell 
you the truth. I don't know how we, our military people, sit 
down with the Chinese. I ask this question in Armed Services, 
and I will close and I will get your responses to some of my 
rambling.
    We had Assistant Secretary for Pacific Affairs, we had a 
four-star Air Force general, very fine gentleman. They are 
telling us about a sit-down with the Chinese and talk about, we 
need to do this, we need to do that. I said to them, how in the 
world can the Chinese look across the table at you with the 
same respect that they might have if you didn't owe them money?
    So are we at a point that--I am not talking about being an 
isolationist. I am not talking about being a protectionist. But 
if we don't get this country back on its economic feet--we lost 
3.5 million manufacturing jobs in 7 years. I don't know how we 
can see ourselves as being a world leader when we can't pay our 
bills.
    I conclude my rambling. I think I have put maybe not 
anything of any depth out for you to respond to. But I wish you 
would respond back because this frustration I feel--I have felt 
it for the last six, seven years--is great. And my concern is 
that I am sitting here and watching not Rome burn, but America 
crumble.
    Ambassador Dobbins. I think most of us would agree that the 
international situation has seldom been more benign. We have no 
peer competitor; we have nobody who could even become a peer 
competitor within the next two or three decades.
    Now, part of the reason the world is on balance, rather 
more benign than it has been for most of the last 200 years, is 
because of American leadership and American engagement and 
building up an international system. And it is frayed around 
the edges as the result of some of the decisions we made over 
the last few years. But it has by no means deteriorated.
    So I think we do have the luxury of turning back and 
worrying about our own problems somewhat more--without becoming 
isolationists, without withdrawing from the system, and without 
ceasing to strengthen the system when we can, but recognizing 
that it is in pretty good shape.
    Mr. Jones. Would anyone else like to comment?
    Dr. Bacevich. Well, I think you have introduced this term 
``isolationism'' into our discussion, and it is very important 
to do that because, in essence, that becomes the club that some 
will employ in order to beat into submission anybody who 
counsels a strategy of restraint or who advocates spending more 
time correcting our internal problems. And it is very important 
to recognize the history of discourse about U.S. foreign policy 
and the role that this bugaboo of isolationism has played.
    The truth is, we have never been an isolationist country. 
And I would simply want to emphasize that as a strategy of 
restraint focused on internal rebuilding is articulated, it 
needs to be articulated in the sense that we are rebuilding 
ourselves in order to facilitate engagement, in order to make 
it--make us better able to engage the world in ways that are, 
first of all, in our interests, but may also actually 
contribute to building a peaceful and prosperous international 
order.
    Dr. Snyder. I want to give--about winding down here, 
gentlemen. Mrs. Davis, did you want a second round?
    Mrs. Davis of California. Just briefly, Mr. Chairman. I am 
sure you are familiar with Henry Kissinger's article of April 
7, 2008, the three revolutions and how--is that familiar to 
anybody? And he talks about--well, the world order and what is 
occurring.
    I am wondering, and it is partly with regard to some of the 
other questions, where does our discussion of a grand 
strategy--and that may be not be the best way to define it at 
this time--fit in with our allies and our ability to include 
others in that discussion? Are we doing that?
    I guess--what advice would you give to the next President 
if in the next, you know, first month or three months or so of 
the Presidency, where would you go first? Where should that be 
placed initially?
    Dr. Reiss. Let me try and address that a couple of ways.
    First of all, the centerpiece of our strength and the 
centerpiece of any grand strategy has to be our allies, so the 
first place you want to go is to Europe to visit our allies in 
Asia, Japan, South Korea, Australia and others. They are very 
desirous of American leadership right now. I have been to both 
Europe and Asia recently; they are waiting for the next 
Administration. It is not so much that they expect some of the 
policies to change, although some people do; but I think that 
they would welcome a change in tone in terms of the face that 
we show the world.
    And it shouldn't be an angry face where everything is 
reduced to a war on terror, but rather something positive and 
affirmative which the United States has traditionally stood 
for. Economic development, human dignity, human rights, these 
are the values I think resonate globally and that epitomize the 
best of our country.
    But when we are talking about a policy of strategic 
restraint, if I can just sort of transition to one of the 
earlier questions, we have to recognize the rest of the world 
isn't going to take a global time-out while we get our house in 
order. Things are going to be taking place, many things, around 
the world that we are not going to be very happy with.
    And I think for Congress, especially over the next few 
years, the two biggest issues you are going to have to grapple 
with in addition to--well, the three biggest things then--is 
going to be what is the next phase of our history with Iraq? In 
particular, what type of American diplomatic and military 
presence do we want to have in the Persian Gulf 5 to 10 years 
out? Because that is really what the debate is all about right 
now.
    We are going to be coming home, whether quickly or slowly. 
But the issue is, what residual force presence do we have? And 
what residual diplomatic influence do we have in the region in 
response to a secondary threat, which is a rising Iran, in 
particular, an Iran with unfettered nuclear ambitions.
    And then the third big issue to really focus on--which, 
again, is not going to await our getting our house in order--is 
going to be Pakistan. This is ground central for al Qaeda, 
according to the intelligence estimates. And Pakistan is beset 
by all sorts of internal difficulties. There are structural 
problems that have long afflicted that country, and it is not 
going to await our ability, our timing to engage it. It is 
going to be demanding the attention of the Congress and the 
next Administration well before then.
    Mrs. Davis of California. Does anybody else want to 
comment, in a minute or two, just in terms of those issues that 
you put front and center, the extent to engage our allies in 
that? Because I think part of our question is--this goes to 
Afghanistan as well--this threat is not perceived in the same 
way that we perceive it necessarily. So where does that fit 
into that?
    Dr. Posen. Well, the only thing I would suggest is that it 
is very interesting the way Dr. Reiss started talking about the 
traditional allies. When we start talking about problems, the 
problems were all concentrated in this one little cauldron. 
And, of course, we have problems with our allies in that 
cauldron.
    I think we need to have a serious engagement with our 
allies about risks and costs and interests in this part of the 
world. It is about time we found out what kind of allies we 
actually have. I don't think what we have discovered is 
particularly good.
    The British and the Australians and the Canadians can't 
carry all the weight for America's alliances. There are other 
rich countries out there who put many, many caveats in their 
participation. And we have to press harder. If we can't get 
their help for some of the things we are inclined to do, I 
think we have to think a lot harder about whether we can do 
them.
    The $64 question on Iran is: Are we going to have a war 
with them? What is everyone else going to say about that war if 
we decide to have it? These issues have to be thought through 
very seriously, because if there is one straw left out there 
that could break the camel's back as far as an American act of 
commission, it is a prevented war with Iran.
    Mrs. Davis of California. Thank you.
    Dr. Snyder. We will close with Mr. Bartlett for any 
questions he wants to finish up.
    Mr. Bartlett. Thank you very much. And thank you, Mr. 
Chairman, for holding this very important hearing.
    I think it is very clear that we cannot have a defensible 
grand strategy unless it addresses the energy challenge that 
the world faces, particularly facing us because we, having only 
about 2 percent of the world's oil, use 25 percent of the 
world's oil.
    I think, Dr. Reiss, it was you who mentioned in your 
testimony, we were sent to negotiate. The first thing you did 
was to educate and explain so that you would then have a basis 
for negotiation.
    Who is responsible for educating relative to energy? There 
is so much misinformation out there. People come to me talking 
about schemes for getting energy out of water. Water is the ash 
you get when you burn hydrogen. Do you think there is energy in 
water?
    You probably think there is energy in the ash in your 
furnace. I had a Member the other day, with a straight face, 
tell me that we had 2,500 years of coal, so we didn't need to 
worry. I hear people saying that by 2050 we will be using twice 
as much energy as we are using now, and most of it is going to 
come from fossil fuels, from oil.
    Then there are those who worship the market: The market 
will fix this problem; it fixes other problems. But resources 
are finite. You will not like the way the market fixes this 
problem if you wait for the market to fix the problem.
    Then there are others that tell me, don't worry at all 
about the future because we have 1.6 trillion barrels of oil in 
the oil shales of the West. Two bubbles have already broken and 
one will shortly break. The first bubble that broke was the 
hydrogen bubble. People finally figured out it is not an energy 
source, I think; it is simply an energy carrier.
    The core ethanol bubble broke with disastrous consequences, 
like world hunger and food shortages around the world. And now 
the next bubble that is going to break--and remember, you heard 
it here--it is the cellulosic ethanol bubble. I can't imagine 
that we are going to get a great deal more energy from our 
wastelands, not good for growing any crop, that we could get 
from all of our corn and all of our soybeans.
    And the National Academy of Sciences--this isn't Roscoe 
Bartlett; this is National Academy of Sciences. If we used all 
of our corn for ethanol and discounted it for fossil fuel 
input, it would displace 2.4 percent of our gasoline. They 
noted you would save as much if you tuned up your car and put 
air in the tires. And if we use all of our soybeans for soy 
diesel, we would 2.9 percent of our diesel.
    There is just a gross amount of misinformation out there. 
Who has the responsibility to educate? Because until people are 
educated, we cannot possibly have a rational discussion of 
energy. Who has that responsibility?
    Dr. Reiss. Congressman, we all do, as educators, as 
representatives. But the prime responsibility is the President 
of the United States; he has the biggest megaphone and the 
biggest pulpit. That is really what is going to be required, 
and it is going to take more than one speech. It is going to 
take a long-term, persistent effort; and there is going to be 
an awful lot of push-back from vested interests.
    And, again, this is why I keep on saying, there has to be 
an awful lot of education that takes place here because it is 
going to be a struggle. You are going to be promising people 
future benefits, but they are going to be taking short-term 
pain; and that is always a very difficult political bargain to 
sell.
    But I think what you have heard today from all of us, if I 
can be presumptuous for a minute, is that I think we all see 
that this is absolutely essential if we are going to keep our 
country strong for the future.
    Dr. Posen. It is easy for people in the education business 
to tell others that they should educate, but--I agree.
    But people need more authoritative sources of facts. One of 
the problems with--one of the beauties, really, of the 
Information Age economy is that there is too much information, 
and much of it is not vetted, we need more sources of 
information that are authoritative. People that, you know, we 
can sort of have a little--you know, give a little credibility 
to some of the sources.
    For years and years and years, you know, I have been 
indebted to you folks, because in my business, we love the 
stuff that we get from Government Accountability Office (GAO), 
we love the stuff we get from Congressional Budget Office 
(CBO), we love the stuff that we get from Congressional 
Research Service (CRS). And you guys have a terrific capability 
to create facts that have a little bit of credibility behind 
them, rather than factoids or candidate facts or baloney.
    And so we welcome your assistance.
    Mr. Bartlett. It is not that the information is not out 
there. Our government has paid for four studies, all of them 
saying the same thing: The peaking of oil is either present or 
imminent with potentially devastating consequences. The Hirsch 
report, Science Applications International Corporation (SAIC) 
report, was the first one; Corps of Engineers, the second one 
in 2005. Last year there were two reports; the second one was 
the National Petroleum Council, the first was the Government 
Accountability Office. And our government has chosen to ignore 
all of those.
    The Hirsch report says the world has never faced a problem 
like this, that the mitigation consequences will be 
unprecedented. And still, it is business as usual. I am just--
you know, I am flabbergasted, Mr. Chairman, how we can do that 
with all of the evidence out there.
    Thank you very much.
    Dr. Snyder. Thank you, Mr. Bartlett, for your questions and 
for your very eloquent way of expressing what clearly is a 
national and world challenge.
    Gentlemen, I appreciate your being with us today. Let me 
say that if, either in your minds now or in the near future, 
you come up with something you wanted to add, feel free to 
submit that as an answer--as a question for the record, and it 
will be distributed to the Members and the staff and included 
as part of the record of this hearing.
    [The information referred to was not available at the time 
of printing.]
    Dr. Snyder. We are adjourned.
    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 15, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 15, 2008

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 15, 2008

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
